<html>
<title> - MANUFACTURING IN THE USA: TRAINING AMERICA'S WORKFORCE</title>
<body><pre>[Senate Hearing 112-127]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-127
 
         MANUFACTURING IN THE USA: TRAINING AMERICA'S WORKFORCE

=======================================================================

                                HEARING

                               before the

                        JOINT ECONOMIC COMMITTEE
                     CONGRESS OF THE UNITED STATES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 12, 2011

                               __________

          Printed for the use of the Joint Economic Committee



                  U.S. GOVERNMENT PRINTING OFFICE
68-300                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6502150a25061016110d0009154b060a084b">[email&#160;protected]</a>  

                        JOINT ECONOMIC COMMITTEE

    [Created pursuant to Sec. 5(a) of Public Law 304, 79th Congress]

SENATE                               HOUSE OF REPRESENTATIVES
Robert P. Casey, Jr., Pennsylvania,  Kevin Brady, Texas, Vice Chairman
    Chairman                         Michael C. Burgess, M.D., Texas
Jeff Bingaman, New Mexico            John Campbell, California
Amy Klobuchar, Minnesota             Sean P. Duffy, Wisconsin
Jim Webb, Virginia                   Justin Amash, Michigan
Mark R. Warner, Virginia             Mick Mulvaney, South Carolina
Bernard Sanders, Vermont             Maurice D. Hinchey, New York
Jim DeMint, South Carolina           Carolyn B. Maloney, New York
Daniel Coats, Indiana                Loretta Sanchez, California
Mike Lee, Utah                       Elijah E. Cummings, Maryland
Pat Toomey, Pennsylvania

                 William E. Hansen, Executive Director
              Robert P. O'Quinn, Republican Staff Director


                            C O N T E N T S

                              ----------                              

                     Opening Statements of Members

Hon. Robert P. Casey, Jr., Chairman, a U.S. Senator from 
  Pennsylvania...................................................  1, 6
Hon. Kevin Brady, Vice Chairman, a U.S. Representative from Texas     8

                                Panel I

Hon. Jim DeMint, a Senator from the State of South Carolina......     2
Hon. Daniel Lipinski, a Representative from the State of Ilinois.     4

                               Witnesses
                                Panel II

Mr. Ron Painter, Chief Executive Officer, National Association of 
  Workforce Boards, Washington, DC...............................    11
Mr. Charles Wetherington, President, BTE Technologies, Inc., 
  Hanover, MD....................................................    13
Ms. Diana Furchtgott-Roth, Director, Center for Employment 
  Policy, Hudson Institute, Washington, DC.......................    14
Dr. Harry Holzer, Professor, Georgetown Public Policy Institute, 
  Georgetown University, Washington, DC..........................    16

                       Submissions for the Record

Prepared statement of Representative Daniel Lipinski.............    38
Prepared statement of Representative Kevin Brady.................    39
Prepared statement of Mr. Ron Painter............................    41
Prepared statement of Mr. Charles Wetherington together with 
  letter dated July 12, 2011 from American CEOs to members of the 
  United States Congress.........................................    46
Prepared statement of Ms. Diana Furchtgott-Roth..................    70
Prepared statement of Dr. Harry Holzer...........................    78
Prepared statement of Representative Michael C. Burgess, M.D.....    83


         MANUFACTURING IN THE USA: TRAINING AMERICA'S WORKFORCE

                              ----------                              


                         TUESDAY, JULY 12, 2011

             Congress of the United States,
                          Joint Economic Committee,
                                                    Washington, DC.
    The committee met, persuant to call, at 10:17 a.m. in Room 
216, Hart Senate Office Building, the Honorable Robert P. 
Casey, Jr., Chairman, presiding.
    Senators present: Casey and Klobuchar.
    Representatives present: Brady, Burgess, Duffy, and Amash.
    Staff present: Brenda Arredondo, Gail Cohen, Will Hansen, 
Colleen Healy, Jesse Hervitz, Madi Joyce, Christina Forsberg, 
Robert O'Quinn, and Michael Connolly.

  OPENING STATEMENT OF HON. ROBERT P. CASEY, JR., CHAIRMAN, A 
                 U.S. SENATOR FROM PENNSYLVANIA

    Chairman Casey. The Committee hearing will come to order.
    Prior to our opening statements, I would like to introduce 
our first panel and then allow them to testify.
    We have both a United States Senator and a United States 
Member of the House of Representatives with us today.
    I first want to welcome Senator Jim DeMint from the State 
of South Carolina. Senator DeMint serves on the Commerce, 
Science, and Transportation Committee; the Banking, Housing, 
and Urban Affairs Committee; the Foreign Relations Committee; 
and of course is also a member of this, the Joint Economic 
Committee.
    In late 2006, Senator DeMint was elected Chairman of the 
Republican Senate Steering Committee. He received his Bachelor 
of Science Degree from the University of Tennessee, and an MBA 
from Clemson University.
    Welcome, Senator DeMint.
    I would also like to welcome Representative Dan Lipinski of 
Illinois's Third Congressional District. Congressman Lipinski 
is a member of two House Committees: Transportation and 
Infrastructure; and Science and Technology.
    Congressman Lipinski serves on the Subcommittee on Aviation 
and the Subcommittee on Railroads, Pipelines, and Hazardous 
Materials. In the Committee on Science and Technology, he is 
the Ranking Member of the Subcommittee on Research and Science 
Education and sits on the Subcommittee on Technology and 
Innovation. He received his Bachelor's Degree in Mechanical 
Engineering from Northwestern University, a Masters in 
Engineering Economic Systems from Stanford University, and a 
Ph.D. in Political Science from Duke University.
    Welcome, Congressman.
    Senator DeMint, why don't we start with you.

                                PANEL I

    STATEMENT OF HON. JIM DEMINT, A U.S. SENATOR FROM SOUTH 
                            CAROLINA

    Senator DeMint. Thank you, Chairman Casey, Vice Chairman 
Brady, Congressman Duffy. I appreciate the opportunity.
    Training in the workplace is something I did professionally 
for a number of years, and I certainly know the importance of 
it and am thankful for the opportunity to talk a little bit 
about it today.
    The training and skills of a workforce are perhaps more 
important than ever as our economy relies more and more on 
technological innovations and individual productivity. We have 
seen that, even in retail, if you can't operate a computer you 
can't even get a job as a cashier.
    Training is key to continuing to develop our workforce. We 
know that new technologies drive economic growth and 
opportunity, but they present challenges--particularly when it 
comes to the training of our workforce.
    The challenge of keeping pace with improving technology and 
innovation has been constant throughout our history, but we 
must always remember that innovation is still a good thing. Our 
embrace of innovation is a primary reason for America's 
century-long economic resilience and prosperity. Every economy 
periodically stumbles, but nations that embrace innovation 
recover more quickly and get back to work.
    I will leave to the experts more of the explanation about 
particular government job training programs. I have my 
questions, but I will let them get into the details. Instead, I 
would like to focus my testimony on this simple lesson that I 
learned in the private sector:
    The only sure-fire training and skill development program I 
know of is actually having a job. And it is in this area, job 
creation, that Washington has utterly failed in manufacturing 
and every other sector of our economy.
    Businesses small and large have every incentive in the 
world to train their employees to develop their skills and to 
keep them current on the latest technologies. As I said, in my 
professional life many companies hired my company to come in 
and train on continuous quality improvement, team building, 
other aspects of their operation. They knew, once they have an 
employee they have invested a lot; they want to keep them 
current.
    That is our best tool for getting training; for people to 
have a job. But unfortunately the current economic policies 
give those same businesses every disincentive in the world to 
actually create new jobs and hire new employees.
    This week I came up on a plane with a man--a gentleman who 
works with community colleges across the Southeast. He says 
they are having difficulty now getting people who are in the 
workforce to do additional training at night because in order 
to avoid hiring new people, many employers are extending the 
hours of those who are already working. And it has created a 
situation where the new training that is needed is not 
happening because people are working not 35, 36, but sometimes 
45 hours a week because they are afraid to hire new people.
    This is very consistent with other meetings I have had with 
businesses. They do not know what their taxes will be, and they 
hear a lot of talk of increasing them; unemployment insurance 
rates are going up; the cost of new health plans is still 
undetermined. We don't know what's going to happen with trade 
agreements for manufacturers that are trying to anticipate new 
markets.
    The liability of doing business in America seems to 
continue to increase, and periodic episodes like the National 
Labor Relations Board going after a company like Boeing just 
tell us that it appears that this Administration, and even this 
Congress, is intent on making it harder and more expensive to 
do business in America.
    They are not paranoid. Every news report about ongoing debt 
limit negotiation reaffirms the Administration's insistence on 
new taxes.
    As last Friday's job reports revealed, there are only so 
many people in businesses left who are doing well enough to 
create new jobs in this country, yet these are the very people 
now being targeted for tax hikes.
    Meanwhile, we have free trade agreements with loyal allies 
awaiting ratification, agreements that will open new foreign 
markets for American products and create American jobs. Yet 
these agreements with Colombia, South Korea, and Panama remain 
on the shelf because of some add-ons that the President has to 
have before moving forward.
    If you look at our $1.7 trillion regulatory state, 
according to the Small Business Administration, federal 
regulations add an average of $8,000 to the cost of every 
employee. And I have a feeling that is very old data, from what 
I am hearing from businesses today.
    On taxes, spending, trade, and regulation, every signal 
from federal policymakers to job creating businesses and 
entrepreneurs is that success will be punished. There is no 
better illustration of these misguided ideas driving federal 
policy today than what I just mentioned: the National Labor 
Relations Board against the Boeing Company.
    Two years ago Boeing decided to build a new airplane 
factory in north Charleston, South Carolina. It didn't replace 
one in Washington. In fact, they have added thousands of jobs 
since they built this. They have invested over a billion 
dollars in the plant. They have created more than 1,000 jobs, 
which will ultimately probably be well over 5,000 direct and 
indirect jobs. And they are one of the world's greatest 
exporters.
    What could be a better case for creating American jobs? 
Yet, the NLRB, led by President Obama's own recess-appointed 
Acting General Counsel, filed suit against Boeing to shut down 
the new factory simply because they do not like South 
Carolina's Right To Work law.
    People wonder where all the jobs are? Policymakers looking 
for someone to blame for America's high rates of unemployment, 
under-employment, and long-term unemployment need only find the 
nearest mirror. And it cannot be forgotten that those who bear 
the greatest burden of these policies are those who can least 
afford them: those Americans who grew up in dysfunctional 
communities, trapped in failing government schools in a cycle 
of dependency. Those with the fewest skills are the first to 
lose their jobs and the last to find work again.
    These struggling Americans have not been left behind by the 
free market. They have been kneecapped by well-intentioned but 
catastrophic government policies. Jobs, growth, investment, 
innovation, and opportunity are what really train America's 
workers and develop their skills, and they are an inevitable 
byproduct of a free economy.
    They are readily available to us, as they always have been, 
if only we reform policies here in Washington that have put 
handcuffs on our economy in the last several decades. I am not 
blaming this on this Administration or one party. If you look 
out over the last couple of decades, it appears we do 
everything we can to make it harder and more expensive to do 
business in America.
    If we really want people to develop the skills, we need to 
get them in the workplace. Employers, working with community 
colleges and other training resources, will get their people up 
to speed and we can do it. Americans will work if we get them 
the jobs. But I don't think we can pretend that we are helping 
if we create these large government training programs when 
people do not have any place to take them.
    We need to get the economy going. That will bring more 
workers. That will bring higher budgets from the private sector 
for training, and then those training resources in the 
government and private sector can help raise the skill level of 
our workers.
    Thank you, Mr. Chairman. I appreciate the opportunity to 
share my thoughts.
    Chairman Casey. Senator DeMint, thank you very much.
    Congressman Lipinski.

 STATEMENT OF HON. DANIEL LIPINSKI, A U.S. REPRESENTATIVE FROM 
                            ILLINOIS

    Representative Lipinski. Chairman Casey, Vice Chairman 
Brady, Members of the Committee, I want to thank you for 
inviting me to testify today.
    Americans need jobs. This fact was emphasized once again 
last Friday with the release of the June unemployment numbers. 
Americans are asking: Where are these jobs going to come from?
    While some believe that America can no longer compete in 
manufacturing, I believe that robust job creation can and must 
come from manufacturing--from what we think of as traditional 
manufacturing such as Northstar Aerospace in Bedford Park, 
Illinois that makes parts for the Apache Helicopter, to 
Advanced Diamond Technologies in Romeoville, Illinois, that 
makes coatings for artificial heart valves. Manufacturing in 
all its forms is critical for America's economic future and for 
our national defense.
    So how can we promote manufacturing job creation? One way 
is workforce education and training. It is simply not the case 
that when a manufacturer is ready to create a new position 
there will be an American ready to start the job.
    I constantly hear from manufacturers in my district, which 
has a long and proud history of small manufacturers, that they 
are having an increasingly difficult time finding qualified 
workers--even in these times of high unemployment. This is true 
for all types of manufacturing, from steel to nanotechnology. 
And if there is no qualified worker, there is no job creation.
    We need a two-pronged approach to address this problem. One 
is to improve the K-12 education system so that students have 
the necessary basic skills for the jobs of today and tomorrow; 
and the other is focused on postsecondary training and 
retraining to improve the skill sets of workers.
    One way to identify and help devote the necessary resources 
for the Nation's manufacturing workforce is through the 
development of a national manufacturing strategy, something 
that this Committee explored last month. H.R. 1366, my National 
Manufacturing Strategy Act, would require government and 
private sector stakeholders to assess the current state of 
American manufacturing, look at future technologies and 
economic challenges, and develop a plan for keeping America's 
industry competitive. This bill passed the House last year 
overwhelmingly 339 to 38, and with the support of Vice Chairman 
Brady at the time.
    Now, manufacturing strategies can work in a high-wage, free 
market democracy. Just ask Germany, which runs a robust trade 
surplus. But of course we cannot wait for a national strategy 
to address the workforce needs that our country currently 
faces.
    In grades K-12, students must be better educated in 
Science, Technology, Engineering, and Math, commonly known as 
the STEM fields. We all have heard countless times how American 
students are falling behind others around the world.
    Provisions of the America COMPETES Act, along with its 
reauthorization which passed last year, seek to improve STEM Ed 
by calling for a wide range of initiatives, including better 
teacher training and hands-on learning at National Labs to 
boost interest and improve education in STEM fields at all 
levels.
    Private industry has also gotten involved. For example, 
Abbott Labs has invested more than $25 million over the last 5 
years to support programs that advance STEM education from 
early elementary school to college. In classrooms, museums, and 
after-school programs, these investments are tailored to build 
a workforce prepared for the increasingly technical job market.
    Now, at the postsecondary level, training and retraining 
initiatives can produce workers capable of filling the growing 
number of highly technical manufacturing jobs. In June, 
President Obama expanded the Skills for America's Future 
Program to increase partnerships between manufacturing 
companies and community colleges.
    This initiative will establish a standardized credentialing 
system, certifying community college students with industry-
recognized credentials and making it easier for employers to 
find potential employees.
    The America COMPETES Act also included a grants program 
aimed at expanding education and training in advanced 
manufacturing at community colleges and requiring Manufacturing 
Extension Partnership Centers to inform colleges of the skill 
areas manufacturers need so that students are prepared to join 
the workforce upon graduation.
    American industry has also been a leader and innovator when 
it comes to workforce development at the postsecondary level. 
One example is the Steelworker for the Future Initiative, a 
public/private partnership, including Arceor-Mittal, the United 
Steelworkers, and community colleges, which will pay for 
students to receive the technical training necessary to fill 
skilled positions throughout the Nation. Not only does this 
program develop the skills needed for sustaining the 
increasingly high-tech steel workforce, it helps grow interest 
in manufacturing jobs.
    But obviously we cannot rely on the private sector alone to 
make the investments and develop the programs that will ensure 
that the United States has the skilled workforce our economy 
needs. Through smart investments, incentives, and well-designed 
programs, we must continue to support workers gaining, 
sustaining, and improving the skills necessary to support 
American manufacturing success.
    I am convinced that if we do not make a concerted effort to 
produce the workforce needed by manufacturers, that it will 
mean nothing less than giving up on much of the American middle 
class, throwing in the towel on ``Made in America,'' and 
accepting that most of the products we buy--even those that are 
necessary for our national security--will be made somewhere 
else.
    I don't believe, and I don't think any of us believe, that 
we can allow this to happen. Thank you very much again for the 
opportunity to testify, and thank you for your work in 
promoting manufacturing in the United States.
    [The prepared statement of Representative Daniel Lipinski 
appears in the Submissions for the Record on page 38.]

  OPENING STATEMENT OF HON. ROBERT P. CASEY, JR., CHAIRMAN, A 
                 U.S. SENATOR FROM PENNSYLVANIA

    Chairman Casey. Thanks very much, Congressman. And we want 
to thank Senator DeMint and Congressman Lipinski for your 
testimony.
    We will now move to our second panel. And as we do, I will 
go through my opening and then turn it over to Vice Chairman 
Brady.
    Today's hearing is the second in a series that the Joint 
Economic Committee is holding to determine the best strategies 
to revitalize manufacturing in the United States of America.
    At the first hearing we focused on the need for a 
comprehensive national manufacturing strategy and examined some 
of the policies needed to support manufacturing companies and 
workers.
    We looked at policies such as cracking down on currency 
manipulation, making the R&D tax credit permanent, extending 
trade adjustment assistance to workers who lose their jobs as a 
result of foreign trade, as well as other strategies as well.
    With today's hearing, our focus is on skill-building and 
preparing our workers in manufacturing and in other sectors to 
compete and win in the global economy. Arming our workers with 
new skills is critical to bolstering our U.S. competitive 
position and strengthening our economy.
    Workers across the country continue to feel the effects of 
what we now know as the Great Recession. Unemployment is at 9.2 
percent. We have regained just 1.8 million of the 8.8 million 
jobs lost during the Recession. There are 2 million--2 
million--fewer manufacturing jobs today than when the Recession 
began.
    A sustained and robust recovery will help many unemployed 
workers find new jobs, but it is clear that we have to do more 
to equip workers with the skills they will need for new jobs in 
the growth sectors of our economy.
    And it is equally clear that workers in these sectors that 
have been hit hardest during the Recession, such as 
manufacturing and construction, face particular challenges. Our 
country is facing a skills gap. There is a mismatch between the 
skills employers need and those that workers have.
    A 2011 survey by Manpower, the temporary staffing company, 
found that more than half, 52 percent of companies, are having 
difficulty finding mission-critical positions--I should say, 
filling mission-critical positions. The share of companies 
unable to fill key positions is at an all-time high. And it is 
not just a short-term problem.
    By the year 2018 it is projected that the U.S. will have 3 
million fewer people with postsecondary credentials than we 
need. With Congress expected to take up the reauthorization of 
the Workforce Investment Act, we know as WIA by the acronym W-
I-A, WIA, this is a critical moment to focus on job training 
and to take a hard look at what works, what does not work, and 
where the Federal Government should put its limited dollars to 
get the greatest return on our investment.
    We need to modernize and reform our job training programs 
to reflect recent knowledge on workforce development and to 
ensure that the programs are as efficient and as effective as 
possible.
    Today's hearing can help us chart that course forward. We 
know a lot more than we used to know about job training. There 
are proven approaches and models that are delivering impressive 
results today. Yes, there is some good news out there in this 
tough economy.
    Sectoral training programs are a prime example. These 
programs identify the sectors of the economy that are for the 
greatest potential, or the strongest growth opportunities in a 
particular community, and then work with nonprofit 
organizations and private sector employers to craft programs 
that build skills that will be in demand.
    These programs are delivering earnings' increases of 20 to 
30 percent. The increasingly important role that community 
colleges play in helping students earn industry-recognized 
credentials is another recent development that offers great 
promise.
    Community colleges have solid relationships with local 
employers and are able to create certification and degree 
programs that build skills that are needed in their 
communities.
    There are other successful models that pair unemployed 
individuals with employers. The starting point is that a job 
training program should be connected to specific needs of a 
specific corporation.
    I know that a priority I have is ensuring that we scale up 
programs which are working and end those that are not 
delivering results.
    One proven program is the Trade Adjustment Assistance Act, 
which helps workers who have lost their jobs to overseas 
foreign competition. It helps them build new skills for these 
workers, and it helps them find new jobs. In the past two years 
alone, Trade Adjustment Assistance has helped hundreds of 
thousands of workers get back on their feet.
    I recently introduced legislation to extend TAA for another 
five years. Congress should extend this program, in my 
judgment, before considering any trade agreements.
    Additionally, reauthorization of WIA provides an 
opportunity to apply proven metrics, proven metrics to any 
workforce program, and any workforce program that WIA supports 
ensuring that taxpayer dollars are spent efficiently and 
effectively.
    Strengthening job training is critical to strengthening 
middle-income families, and that is why updating and improving 
our training programs is so important. We need to help workers 
develop new skills to find new jobs, and we need to ensure that 
employers are able to find the skilled employees they need to 
operate and expand their businesses.
    The benefits run both ways: Employers and employees.
    We are fortunate today to have with us a distinguished 
panel of experts who have deep knowledge of workforce 
development and a keen understanding of the most powerful and 
effective job training strategies. I appreciate our witnesses 
being here. I will introduce each of you in a moment before 
your testimony, but I want to turn it over to our Vice 
Chairman, Vice Chairman Brady.

 OPENING STATEMENT OF HON. KEVIN BRADY, VICE CHAIRMAN, A U.S. 
                   REPRESENTATIVE FROM TEXAS

    Vice Chairman Brady. Thank you, Chairman Casey, for 
convening this hearing on job training in manufacturing. I 
remember with fond memories one of my many college jobs on the 
manufacturing floor of Electromagic, punching and bending sheet 
metal to build air compressors, because it paid well.
    Manufacturing in the United States has changed dramatically 
since then. Low-tech, labor-intensive goods such as apparel, 
shoes, sporting goods, and toys that were once made in America 
are now imported, while U.S. manufacturers sell high-tech, 
capital-intensive goods to the rest of the world.
    Computer-driven machinery has replaced routine labor in 
manufacturing. This has boosted productivity growth, averaging 
2.9 percent a year. What took 1,000 workers to manufacture in 
1950 now takes only 184 workers. Consequently, manufacturing 
jobs as a share of the total nonfarm jobs have declined from 
over 30 percent in 1950 to a little under 9 percent today.
    Six decades ago, a high school dropout with no special 
skills could get a job on an assembly line, work hard, and over 
time enter the middle class. Today, a job in manufacturing 
demands special skills and may even require a college degree.
    The changing nature of manufacturing demonstrates the 
importance of job training for the success of both America's 
manufacturers and their workers. Congress enacted the Workforce 
Investment Act in 1998 to consolidate the Federal Government's 
fragmented job training system into a coherent one-stop system 
that could serve the needs of employers and workers.
    However, the Government Accounting Office found continuing 
fragmentation, overlap, and potential duplication in job 
training programs run by multiple federal agencies. For fiscal 
year 2009, the GAO found 47 federally funded job training 
programs administered across nine different agencies. Almost 
all of these programs overlap with other programs in the 
provision of similar services but with differences in 
eligibility, objectives, and service delivery.
    In addition to costly duplication, federal job training 
programs do not necessarily serve their purpose well either for 
those seeking jobs or workers seeking retraining. Job training 
programs that work best are employer-driven, not bureaucracy-
driven. Manufacturers know what skills employees need to 
succeed better than bureaucrats.
    The Senate will soon be reconsidering the Workforce 
Investment Act. Congress has an opportunity to consolidate and 
reform existing federal job training programs and to improve 
their value for U.S. taxpayers. I urge Republicans and 
Democrats in both Houses of Congress to seize this opportunity.
    However, the best job training programs are meaningless if 
there are no jobs available for their graduates. The Employment 
Situation Report for June, which was released last Friday, 
confirms that the economic policies of the White House and some 
in Congress are failing to revive our moribund economy and 
create jobs--manufacturing or otherwise.
    By the Obama Administration's own standards, its stimulus 
plan has failed spectacularly to create jobs. According to the 
June report, the United States still has 6.5 million fewer 
payroll jobs than promised. And June's unemployment rate of 9.2 
percent is far above the promised 6.7 percent.
    History demonstrates that business investment in new 
buildings, equipment, and software--not federal spending--
drives the creation of new payroll jobs. U.S. businesses are 
sitting on nearly $2 trillion that they could invest here at 
home to create jobs for American workers, but they are refusing 
to do so.
    So why does American capital seem to be ``on strike''? The 
answer is that the Administration's economic policies keep 
businesses guessing what onerous burdens await them. As several 
Texas businessmen have told me: Predicting market conditions is 
tough enough in what we do for a living; predicting what the 
President and Congress may do? Forget it.
    It now is widely understood that excessive federal 
spending, budget deficits, and debt accumulation mortgage our 
economic future and increase uncertainty over the size and form 
of future tax increases. However, we also have a regulatory 
explosion currently that thwarts business expansion and 
increases uncertainty.
    Here are just a few examples of regulatory excesses:
    The State Department's failure to issue a construction 
permit for the Keystone XL pipeline from Canada, a project 
estimated to create over 13,000 high-wage manufacturing and 
construction jobs across the country, stimulating significant 
additional economic activity.
    The Administration's illegal moratorium on and subsequent 
slow rolling of permits for deep-water oil exploration and 
development in the Gulf.
    The EPA's proposed regulations on greenhouse gas emissions.
    And, as mentioned by Senator DeMint, the National Labor 
Relations Board's unprecedented actions against Boeing for 
locating one of its manufacturing facilities in South Carolina.
    While solving our fiscal problems requires Congressional 
action, President Obama could end decisively his regulatory 
onslaught on American businesses on his own and without delay. 
If the President is serious about relieving unemployment--and I 
believe he is--he should act now to reverse his 
Administration's confidence-shattering, job-destroying 
regulatory policies--sooner rather than later.
    Mr. Chairman, I look forward to hearing the testimony of 
today's witnesses, and appreciate your leadership on this 
issue. I yield back.
    [The prepared statement of Representative Kevin Brady 
appears in the Submissions for the Record on page 39.]
    Chairman Casey. Thank you, Vice Chairman Brady.
    I wanted to introduce our panel, and then we will move to 
your testimony. I will be moving to my left to right.
    First of all, Mr. Ron Painter is the CEO for the National 
Association of Workforce Boards, known by--we always have 
acronyms, don't we, in Washington----
    [Laughter.]
    NAWB. It's the leading workforce association that 
represents the Nation's nearly 650 business-led Workforce 
Investment Boards, also another acronym, WIBS, W-I-B-S. These 
Boards, so-called WIBS, plan and oversee state and local 
workforce development and training programs. Mr. Painter's 
previous work includes Chief Executive Officer of the Three 
Rivers Workforce Investment Board in my home State of 
Pennsylvania; the U.S. Department of Labor for the Enterprise 
Project; and the National Association of Business. He also 
served as Butler County, Pennsylvania's, elected Clerk of 
Courts. Welcome, Mr. Painter.
    Mr. Charles T. Wetherington serves as President of BTE 
Technologies, Incorporated, a provider of technology solutions 
to the physical therapy market worldwide, with sales in 35 
countries. Mr. Wetherington serves on the board of directors of 
the National Association of Manufacturers and has been trustee 
of the Foundation for Physical Therapy since 2006. Welcome, Mr. 
Wetherington.
    Ms. Diana Furchtgott-Roth is a Senior Fellow at Hudson 
Institute and directs the Center for Employment Policy. From 
February 2003 to April 2005, she was the Chief Economist of the 
U.S. Department of Labor. Also, she was Assistant to the 
President and a Resident Fellow at the American Enterprise 
Institute from 1993 to 2001. Prior to that, she served as 
Deputy Executive Director of the Domestic Policy Council, and 
Associate Director of the Office of Policy Planning at the 
White House under President George H.W. Bush. Ms. Furchtgott-
Roth, we welcome you here today, as well.
    And finally, Dr. Harry Holzer is Professor of Public Policy 
at Georgetown University and a Founding Director of the New 
Georgetown Center on Poverty and Equality in Public Policy. He 
is currently a Senior Fellow at the Urban Institute, and a 
Senior Affiliate of the National Poverty Center at the 
University of Michigan, among his many other affiliations. 
Prior to coming to Georgetown, Professor Holzer served as Chief 
Economist for the Department of Labor in 1999. Welcome, Doctor.
    Mr. Painter, we will start with you.

                                PANEL II

STATEMENT OF MR. RON PAINTER, CHIEF EXECUTIVE OFFICER, NATIONAL 
        ASSOCIATION OF WORKFORCE BOARDS, WASHINGTON, DC

    Mr. Painter. Thank you, Mr. Chairman, Mr. Brady, Mr. Duffy. 
It's a pleasure to be here this morning. I thank you for the 
invitation to testify.
    On behalf of the National Association of Workforce Boards, 
NAWB, I am pleased to testify on how the Nation's workforce 
system is working to equip workers with the skills they will 
need to help ensure our Nation's long-term economic success.
    Let me first provide a brief description of my 
organization, the country's workforce system, and the 
challenges that it has faced over the last several years.
    Today there are over 550 Workforce Investment Areas across 
the country, all overseen by local, business-led, business-
chaired Workforce Investment Boards.
    As you mentioned, they have the responsibility for 
developing workforce policies and strategies for federal and 
state funding to meet the employment and skill needs of 
America's employers and job seekers.
    NAWB represents these Boards by communicating with 
policymakers such as we are doing today, translating practice 
to policy, and providing information about promising practices 
and professional development to the Nation's Workforce 
Investment Boards, or WIBS.
    We believe that many in the business community find the 
workforce system to be of value to their local communities and 
their economic regions. Over 12,000 employer representatives 
serve on local and state WIBS across the U.S., many of them in 
manufacturing.
    NAWB's national board, chaired by Laurie Moran, the 
Executive Director of the Danville-Pittsylvania, Virginia, 
Chamber of Commerce, includes both large employers in 
manufacturing such as Microsoft, Boeing, and Ford Motor 
Company's Fund, as well as small manufacturers, financial 
planners, health care providers, community bankers, education, 
and the Philadelphia AFL-CIO.
    Their common bond, like the local Boards, is to help 
America's employers compete through having a skilled and 
available labor force. Despite overall stagnant funding over 
the past 10 years and cuts in FY 2011, the workforce system has 
experienced an over 200 percent increase in demand for services 
over the past 2 years.
    In the last reporting year, the workforce system served 
over 8 million individuals through its Adult Dislocated Worker 
and Youth Programs, and over 4 million job seekers who were 
placed in employment, with hundreds of thousands more placed 
into training for new jobs and careers.
    The workforce system has increasingly adopted sector-based 
strategies, as you mentioned, to not only support but in some 
cases to develop training programs designed to meet the 
specific skill requirements of those employers.
    Let me cite one example of where the Workforce Investment 
system has played a vital role. In your home State, Mr. 
Chairman, of Pennsylvania, manufacturing employees in Berks and 
Lancaster County were losing their skilled industrial 
maintenance workers to retirement and were concerned about what 
they viewed as an inadequate pipeline of new entrants.
    In addition, the job requirements were changing 
drastically. These new jobs, which are now called 
``mechatronics,'' are high-tech jobs that combine mechanical, 
electrical, and controls' engineering with computer science. 
Driven by employer input, the Berks and Lancaster County WIBS 
teamed with the Reading Area Community College to develop and 
offer Advanced Manufacturing, Integrated Systems Technician 
Certification Program through the community college and the 
region's secondary career and technical centers.
    More than 400 workers have earned their certification in 
Mechatronics through this collaborative effort. The 
competencies that were developed are now a part of the National 
Packaging Institute's Competency System. As well as producing 
an Associate Degree Program at the community college, graduates 
of this program can now transfer credits to one of three 
baccalaureate programs--one at Penn State Berks, one at 
California University of Pennsylvania, and one at Perdue 
Calumet in Hammond, Indiana.
    This is an example--and there are many more on a website 
called ``workforceinvestmentworks.com'' that has stories from 
every state across the U.S. about the impact that your 
investment, this Congress, in workforce development is working.
    WIA was enacted in 1998 in a very different economy, and we 
recognize that it is in need of updating, to factor in not only 
the significant changes in the economy, changes in the 
occupations we have, anticipation of occupations or emerging 
jobs and skills, and to incorporate lessons that we have 
learned over the 12 years of WIA.
    NAWB strongly supports the HELP Committee's bipartisan 
efforts to reauthorize WIA, and we would urge you to do the 
same. In addition, funding for WIA is also of deep concern. 
These programs should be seen as investments in our human 
capital, critical to getting people back to work and rebuilding 
our economy.
    The workforce system at the local level leverages many 
multiple funding streams, including critical funding through 
Pell and TAA, as funding from the private sector as well, and 
from foundations and other sources. Some of these resources 
could be at risk if we continue to watch funding reductions.
    We do appreciate and recognize the importance of deficit 
reduction, but we also recognize that the skills of America's 
workforce are directly related to our economic recovery and 
future competitiveness.
    NAWB and the Nation's Workforce Investment System are in 
the front lines of helping America's business access a labor 
force with the skills they need to be competitive and helping 
job seekers to make often difficult transitions to new jobs in 
what are some of the most stressful times of their lives. We 
stand ready to continue to serve, and I appreciate the 
opportunity to have been here today.
    [The prepared statement of Mr. Ron Painter appears in the 
Submissions for the Record on page 41.]
    Chairman Casey. Thank you, Mr. Painter. And I should have 
mentioned at the beginning that of course we try to keep 
witnesses to five minutes, and you actually did it. It doesn't 
happen every day. But obviously as part of that agreement, if 
you have a statement that you want submitted for the record, it 
will be. So each of your statements will be made a part of the 
record, in addition to your testimony that summarizes the 
statement.
    So, Mr. Wetherington.

     STATEMENT OF MR. CHARLES WETHERINGTON, PRESIDENT, BTE 
                TECHNOLOGIES, INC., HANOVER, MD

    Mr. Wetherington. Good morning, Chairman Casey, Vice 
Chairman Brady, and Congressman Duffy.
    I am Chuck Wetherington, President of BTE Technologies 
based in Maryland. My company is widely regarded as the leading 
provider of advanced technologies for physical testing and 
rehabilitation, as well as solutions for workplace injury 
reduction for large employers.
    I am pleased to testify on behalf of the National 
Association of Manufacturers. The NAM represents manufacturers 
in every industrial sector and in all 50 states. Manufacturing 
supports an estimated 18.6 million jobs in the U.S., about 1 in 
6 private sector jobs.
    To put this into perspective, that is about the total of 
the population of the cities of New York City, Los Angeles, 
Chicago, Houston, and Phoenix combined. The NAM appreciates 
Congress's interest and support of manufacturing. Jay Timmons 
appeared before this Committee a couple of weeks ago and shared 
with you our manufacturing strategy for jobs and a competitive 
America.
    I support that strategy, and I urge you to adopt it as a 
guiding document for legislation you consider. The strategy is 
focused on things Congress can do to make America the best 
place in the world to headquarter a company, manufacture, and 
innovate.
    A key issue for manufacturers is the need for a skilled 
workforce, as everyone has said here today. Manufacturers have 
applauded President Obama for his support of partnerships 
between manufacturers and community colleges to make 
manufacturing credentials available nationwide and to help 
close the skills gap.
    The NAM encourages the Senate to refine the draft Workforce 
Investment Act reauthorization to promote and emphasize the 
adoption of portable industry-recognized skills credentials 
within the legislation.
    However, I think it is important to note that the economy 
as a whole needs to grow in order for manufacturers to create 
new jobs and fill those currently available. I urge you to look 
more broadly at factors impeding job growth.
    To highlight the need to address issues affecting the 
economy, I would like to submit for the record a letter signed 
by nearly 500 CEOs, including myself, encouraging Congress to 
act in the Nation's best interest and reach an agreement on the 
debt ceiling.
    Chairman Casey. That will be made part of the record.
    Mr. Wetherington. Thank you very much, sir.
    Manufacturers and businesses across the Nation face 
considerable uncertainty, which stifles growth and discourages 
hiring. For example, actions such as the National Labor 
Relations Board complaint against Boeing Company, proposed 
regulations from the NLRB, Department of Labor, the EPA, the 
FDA, and others will raise the cost of conducting business and 
further inhibit the creation of jobs.
    The NAM recently polled over 8,000 of its members about the 
impact of the NLRB's complaint and other actions by the Board. 
The survey asked the following question:
    Would this complaint and other recent NLRB reactions 
negatively impact your ability to create jobs?
    The results should get everyone's attention. Of the more 
than 1,000 responses, almost 69 percent said: Yes, it will 
impact their capital investment and hiring decisions; 18 
percent said ``no,'' and 13 percent were not sure. Clearly 
these actions are of great concern to manufacturers.
    An issue of great importance to me and my company is the 
FDA's 5-10K approval process used by medical device 
manufacturers. Last year the FDA suggested significant changes 
to this approval process that would have devastated companies 
like mine.
    The prospect of these changes being implemented, despite an 
exemplary safety record for the current process, hangs over the 
heads of manufacturers and other companies, creating a sense of 
uncertainty about capital investment and hiring additional 
employees.
    Mr. Chairman, the United States remains the world's largest 
manufacturing economy, producing 21 percent of the global 
manufactured products. As manufacturers, we face many 
challenges due to intense global competition. We would do well 
to make sure our own government is not one of the challenges 
manufacturers and employers need to overcome in order to be 
successful and create good, well-paying jobs for Americans.
    Thank you, Mr. Chairman. Thank you, Vice Chairman. And 
under five minutes.
    [The prepared statement of Mr. Charles Wetherington 
together with letter dated July 12, 2011 from American CEOs to 
members of the United States Congress appears in the 
Submissions for the Record on page 46.]
    Chairman Casey. Thanks very much. Well under. You get extra 
credit for that.
    [Laughter.]
    Ms. Furchtgott-Roth. Thank you.

 STATEMENT OF MS. DIANA FURCHTGOTT-ROTH, DIRECTOR, CENTER FOR 
      EMPLOYMENT POLICY, HUDSON INSTITUTE, WASHINGTON, DC

    Ms. Furchtgott-Roth. Mr. Chairman and Mr. Vice Chairman, 
thank you so much for inviting me to testify here today. With 
your permission, I would like to submit my written testimony 
for the record and summarize right now in just under five 
minutes, I hope, like Mr. Wetherington.
    Training is immensely important. I myself have coauthored 
papers on the importance of community college training in 
economic mobility, looking at a large data set in the State of 
Florida. But the problem is, right now there are very few job 
openings, and so training has limited effects in reducing our 
unemployment rate.
    Today, at ten o'clock, the Bureau of Labor Statistics 
brought out its monthly Job Openings and Labor Turnover Survey, 
which I have right here before me, and it showed the changes 
from April to May in job openings, hires, separations, and 
layoffs.
    The job openings rate stayed the same between April and May 
at 2.2 percent. In 2008 it was 2.6 percent. Total hires stayed 
the same, 3.1 percent in April versus 3.1 percent in May. The 
total separations rate--that is people who have left their 
jobs--rose from 2.9 percent in April to 3.1 percent in May. And 
the total layoff rate went up from 1.2 percent in April to 1.4 
percent in May.
    These might not seem very large changes, but these indicate 
that employers are not increasing their hiring; rather, they 
are keeping their hiring the same and increasing their layoffs.
    So what we need to do is look at what can we do right away 
in order to change this picture for employers? Because right 
now we have, as you know, discussions on the debt ceiling, 
deficit problems, and we need to look at what we can do in a 
costless manner that can help employers hire right now.
    The President can control his Cabinet Secretaries, and the 
whole Executive Branch. I would just like to mention briefly 
four areas where he could help.
    As was mentioned before, the National Labor Relations Board 
(its actions as was mentioned previously today towards Boeing's 
decision to expand in South Carolina) has sent a chilling 
signal to any employers who want to start plants, especially in 
unionized states. If they build a plant somewhere, and they 
want to expand elsewhere and the National Labor Relations Board 
doesn't allow them to do so, this is a big disincentive to 
locating in a unionized state. This actually hurts unionized 
states more than right-to-work states. Firms know if they 
locate initially in a right-to-work state, will be allowed to 
move.
    Boeing, for the record, hasn't laid off any workers in 
Washington State. It has kept its entire workforce. But with a 
backlog of over 800 Dreamliners, it needs another plant. The 
NLRB action is something the President could change 
immediately. He could replace his Acting General Counsel, or 
withdraw the nomination of Mr. Lafe Solomon, and he could 
express his regret with what's happened, or change the policy. 
He hasn't done that.
    Environmental Protection Agency. Just last week it brought 
out a new set of regulations that they called the Clean Air 
Transport Emissions Rule, about emissions going over state 
lines. We have increasingly cleaner air since 1980. Our air has 
got cleaner every single year. Why don't we just hold off on 
additional EPA regulations for a couple of years until maybe 
our unemployment rate is down to 7 percent? Our air is 
continually cleaner, so we would not be making our air dirtier, 
because with every new plant we put in place, every new car 
Americans buy, our air gets a little bit cleaner because we're 
using new technology.
    Labor Department. The Mine Safety and Health Administration 
is bringing out new regulations on dust in coal mines. Those 
are going to decrease the potential for employment in these 
coal mines, especially in hard-hit states in the Midwest. It is 
bringing out new regulations for affirmative action for women 
on construction sites. And, by the way, for the record, women's 
unemployment rate is 1.1 percentage points lower than men's 
right now.
    DOL is bringing out new affirmative action regulations for 
veterans and new affirmative action regulations for the 
disabled. Again, it is very hard for employers to comply with 
all these different regulations.
    Department of the Interior. Not allowing any new drilling 
in the Gulf of Mexico. Again, this is something that could be 
changed right away at no cost.
    Along with these different regulations that could be 
changed, there are laws that we have in place that also 
discourage hiring, such as the new $2,000-per-worker penalty 
for employers if they don't have the right kind of health 
insurance, beginning in 2014.
    But I see my time has expired, and I would be glad to 
expand on those in the question and answer, if anyone is 
interested.
    [The prepared statement of Ms. Diana Furchtgott-Roth 
appears in the Submissions for the Record on page 70.]
    Chairman Casey. Thank you for being cognizant of the time. 
Dr. Holzer.

  STATEMENT OF DR. HARRY HOLZER, PROFESSOR, GEORGETOWN PUBLIC 
    POLICY INSTITUTE, GEORGETOWN UNIVERSITY, WASHINGTON, DC

    Dr. Holzer. Thank you. Good morning, Chairman Casey, Vice 
Chairman Brady, and Mr. Duffy.
    I would like to make five major points today about 
manufacturing, employment, the U.S. labor market, and the 
Nation's education and workforce development system.
    Point number one: Despite the loss of over 2 million jobs 
in manufacturing in the last four years and high unemployment 
among these workers, employers still have difficulty filling 
jobs created in that industry--at least partly due to a lack of 
workers with the appropriate technical skills.
    The single clearest piece of evidence on this is that the 
ratio of job vacancies to new hires in manufacturing is higher 
than we see in any other major industry group, suggesting 
employers are having difficulty filling those job vacancies. 
And descriptive evidence from several different sources 
reinforces this viewpoint.
    Point number two: In order for America's prosperity to be 
widely shared, and in order to help reduce currently high 
levels of unemployment, the skills that Americans bring to the 
labor force will have to increase. At over 9 percent, today's 
high unemployment does mostly reflect cyclical factors, or a 
shortage of jobs, but a piece of it is structural, again with 
employers having difficulty filling job vacancies requiring 
technical skills. And several important analyses recently by 
Professor Michael Elsby at the University of Michigan, 
Professor Bill Dickens of Northeastern University and others 
support this claim.
    The large fraction of unemployed workers who have been out 
of work for six months or longer will reinforce the structural 
component of unemployment because the long-term unemployed 
always have more difficulty reentering the labor market after 
an absence of work.
    Over the long term, the gaps between the skills demanded by 
American employers in good-paying jobs and those supplied by 
American workers contributes to the enormous levels of 
inequality that we have in the U.S. today. So unemployment 
could be reduced and prosperity more widely shared if Americans 
had more of the post-secondary credentials that employers seek 
both in middle-skill technical jobs and in high-skill jobs 
requiring a BA or more.
    Point number three: While the public and private systems of 
K-12 and higher education in the U.S. and private sector on the 
job training do contribute to the skills of the workforce, a 
very robust public system is still necessary for meeting these 
needs.
    On their own, our system of higher education will not 
produce enough of the skills needed by American workers. The 
drop-out rates at our two-year and four-year colleges are very 
high. Students who manage to finish a credential often don't 
get the credentials that our labor market happens to reward.
    This is partly because our education workforce systems 
largely operate in isolation from one another, with too few 
students gaining access to career counseling and other 
employment services.
    Private employers do provide some of the training they need 
on the job, but they are reluctant to provide general skills or 
occupational training for a variety of reasons. So a strong 
publicly funded workforce system is still necessary to meet 
these skill needs.
    Point number four: Though it clearly provides employment 
services and training cost effectively, the publicly funded 
workforce system right now has too few resources to be fully 
effective, and these resources should not be further reduced.
    A very rigorous body of research evidence indicates that 
our public workforce system provides services to job seekers 
and training that is clearly cost effective, but the funding of 
the system has declined by as much as 90 percent over the last 
three decades.
    Title I of the Workforce Investment Act now receives under 
$3 billion of funding in a labor force with 150 million 
workers, and an economy that has a GDP of $15 trillion per 
year. I believe the concerns over duplication raised by the 
recent GAO report have been wildly overstated, since most of 
the 47 programs they cite use very small sums to target very 
detailed worker populations.
    Even if you include all of those funding sources, virtually 
no other industrial nation in the world spends as little on 
employment services and training as a percentage of its GDP as 
we do in the U.S.
    Finally, point number five: The U.S. needs to develop a set 
of more coherent education of workforce systems, mostly at the 
state level, but with federal support that is better integrated 
with the demand side of the U.S. economy and with the labor 
market.
    Performance of the WIA system could be improved along a 
number of dimensions. WIA could provide more support to states 
and localities that use the kinds of sectoral strategies that 
Chairman Casey talked about earlier. Indeed, the evidence on 
the cost effectiveness of sectoral programs is very, very 
compelling.
    A number of states--like Pennsylvania, Michigan, Oregon, 
Washington, and Wisconsin--have made enormous strides in tying 
their education of workforce systems to areas of strong 
industry demand. I believe a major new competitive grants 
program to fund state activities, perhaps modeled on the Race 
to the Top Program in education, could be very helpful to 
encourage more states to better integrate their education in 
workforce system with industry demand. But any such program 
should represent a net addition to, and not a carving out, of 
current WIA funding.
    Thank you very much.
    [The prepared statement of Dr. Harry Holzer appears in the 
Submissions for the Record on page 78.]
    Chairman Casey. Doctor, thanks so much. Everyone was on 
time. That is impressive.
    Doctor, I want to take you back to your final point about 
the sectoral training programs, not only because you mentioned 
Pennsylvania, but that certainly doesn't hurt, because there is 
a good track record there. But tell us about what are the, for 
lack of a better word, the characteristics, or features of 
those kinds of programs that have worked at the state level.
    You mentioned in your testimony five states, in addition to 
Pennsylvania--Michigan, Oregon, Washington, Wisconsin--where 
they have made great strides and, as you say, quote, ``tying 
their education of workforce systems to industry demand,'' 
unquote. How does that work?
    What are the features of the programs that have worked on 
the ground? Because we have to get away from just, you know, 
theory in Washington. We need to point to strategies that are 
working in the real world, and I want to get your sense of 
that, especially as we are about to reauthorize the Workforce 
Investment Act.
    Dr. Holzer. Well I want to distinguish, Senator, between 
programs that work in individual industries, that target key 
industries, versus state-level systems that effectively 
encourage these partnerships. And just for the sake of 
bipartisanship, I also want to note that some of the most 
successful programs, like Project QUEST in San Antonio, and 
Capital Idea, have occurred in the State of Texas, and those 
are also very good programs.
    Chairman Casey. It is important to mention Texas here, too.
    Dr. Holzer. I noted that.
    [Laughter.]
    Chairman Casey. But separate from these programs, and I 
think these programs actively encourage intermediaries to work 
with employers to target key sectors of the economy where 
demand is growing, where good paying jobs are available, and 
employers are engaged in the process of creating the education 
and training programs, and often actively commit to hiring the 
workers that come out with the appropriate credentials.
    So they do that at the programmatic level. I think what 
they do at the state levels that is important is they create 
systems of looking broadly across the different sectors of 
their economy, identifying the industries where demand is 
projected to be strong, where there might be unmet needs for 
skilled workers, and then creating the partnerships between 
employers, skill providers, and the workers in those industries 
in a more systematic way.
    I think those states, among many others, have taken the 
lead in creating those systems on a broader scale.
    Chairman Casey. Is there anything that we do here, or can 
do by way of WIA or otherwise, legislation or strategies that 
we can employ here that will incentivize or foster that kind 
of, I guess for lack of a better word, engagement between the 
particular business community at the local level and this 
strategy on a particular sector?
    Dr. Holzer. I would say two things. First of all, I think 
there are some changes in WIA that could encourage more of that 
kind of activity.
    For instance, simplifying the performance measurement 
system and putting more weight on the attainment of industry-
recognized credentials within the performance measures of WIA I 
think would be very helpful.
    Right now, sectoral programs are allowable under WIA but 
not particularly encouraged by WIA, and I think we could do 
more to encourage their development.
    But the other thing, as I mentioned before, I personally 
would advocate a competitive grants program as part of WIA, but 
not carved out of WIA funding, to provide funding to those 
states that are taking a lead in that area, that have shown 
evidence of doing it so far that are willing to use existing 
pots of money that they already have, to tie them together more 
effectively, to create systems at the state level that reach 
out to these growing industries and better serve their needs.
    Chairman Casey. Because any suggestions now are helpful 
because we have got the reauthorization that is coming in the 
next--well actually we're working on it this week and over the 
next couple of months within the Committee, and hopefully we 
will get it to the Senate Floor as well as in the House.
    I am going to be running short on time, but I wanted to, 
Mr. Painter, I wanted to raise a question with you that I might 
hold for the second round, but about the Westmoreland County 
Community College, which is of course a community not too far 
from Pittsburgh, who received a $4.9 million grant. I wanted to 
have you talk about that. But I see I am close on time and we 
will pick that up in the second round.
    Vice Chairman Brady.
    Vice Chairman Brady. Thank you, Chairman. Thank you all for 
your testimony. Ms. Furchtgott-Roth, thanks for your points 
about uncertainty. We had real impacts in southeast Texas. At 
one point just several years ago we had the need for about 
10,000 welders due to refinery and chemical plant expansions.
    Many of those are now on hold. One of them, I think the 
Motiva Plant, cancelled their expansion due to both global 
factors and the concerns about some of the cap and trade 
legislation we were looking at. That was 1,500 construction 
jobs, 250 permanent jobs.
    And it was interesting, as our local companies sought to 
find welders for these expansions, one, the skills were not 
there. And secondly, many could not pass the drug testing 
requirement at the outset. It was very frustrating. And these 
are jobs that pay between $60- and $80,000, above the median 
work scale in America. And it is one of those challenges that, 
as the economy picks up we hope to have that challenge going 
forward as well. But your point about uncertainty is real.
    Mr. Painter, before coming to Congress, as a Chamber of 
Commerce executive I served on our Private Industry Council 
that oversaw job training programs in the Houston Region. My 
impressions were, one, it was very bureaucratic. We did spend a 
lot of the time trying to, you know, fit into the boxes of the 
plans; but we also had a variety of contractors, some who were 
extremely effective in their job training efforts in their 
communities, and others not so much.
    I want to talk to you in a minute about what those 
characteristics are of successful programs.
    Mr. Wetherington, thank you for being here. Have you 
hired--as an employer, have you hired a worker trained through 
the Federal Job Training Program?
    Mr. Wetherington. I know I am supposed to be here to paint 
the dire picture, but--and we are a small company, only 80 
employees--this year we have increased employment by 9 percent, 
so 7 new people this year. But I do have some issues.
    I have open jobs that are very difficult to fill right now. 
So I have three positions that have been open for a month where 
my skill sets are very difficult to find in the market that I 
play.
    Vice Chairman Brady. Have you worked, or hired through a 
Job Training Program, federally funded?
    Mr. Wetherington. I have not, no. I have hired ex-military. 
That tends to be a great place for me to go. I get both great 
skill set training as well as great work ethic.
    Vice Chairman Brady. Is this new? This inability to fill 
these positions? I don't know what you're looking for, but this 
mismatch between skills and jobs, is it something that is 
growing wider?
    Mr. Wetherington. I believe it is growing wider. For us, 
our jobs are getting more technical. These are electrical 
technician positions that I need. It is an issue that BRAC is 
just down the street from me and is sucking up a lot of the 
technical capabilities that I need to have. So I think there's 
some microeconomic issues as well as macro.
    Vice Chairman Brady. Where do you recruit from for those 
positions? Is it done locally, for the most part?
    Mr. Wetherington. It's done locally. My plant is close to 
BWI up in Baltimore, so I do local recruiting, and I 
occasionally have to go broader.
    Vice Chairman Brady. Dr. Holzer and Mr. Painter, the same 
question. Is the skills' gap getting wider? And if so, why? I 
mean, it seems like the mismatch between skills and jobs today 
seems greater than--or at least appears to be greater than it 
has in the past. Is that the case? And if so, why?
    Mr. Painter. I'll take the first part of that, Congressman. 
I think in many parts of the country, as I talk to the 
Workforce Boards, I think the answer is--Is it getting wider? 
I'm not sure. But I think it is this convergence of, with 
technology, with innovation, with changing in the production 
processes.
    I think even I hear from local Boards that say companies 
that laid off maybe two, three years ago and are now starting 
to rehire, even the jobs that they are rehiring for are 
different jobs. So the skill sets are changing dramatically. 
And I think that a lot of it is also trying to encourage people 
to go back and get the kinds of training.
    Workforce Boards, we support the drive for certifications 
and for competencies, and industry-recognized certification is 
part of the process. So I can't tell you definitively it is 
getting wider. It is not uncommon for me to hear that as I 
travel the country.
    Vice Chairman Brady. Thank you. Doctor.
    Dr. Holzer. Congressman, I believe it is getting wider. And 
I think there are two reasons for that, and it parallels what 
Mr. Painter said.
    First of all, I think economywide forces of new technology 
are raising the demand for skills in the economy--``skills'' 
broadly defined, above the secondary level--and I think the 
supply of skills is failing to keep up with that growing 
demand. This has been true for a while for a lot of different 
reasons: The fraction of young people finishing some kind of, 
not only postsecondary credential but a relevant credential has 
been falling off, even though many more people are attending 
community college, four-year colleges, et cetera.
    And I think, frankly, as the Baby Boomers retire, that gap 
will grow even more, that gap between skills' demand and 
supply.
    I think the other issue is we are in an economy where the 
exact specific skill sets are changing very rapidly. There are 
these structural changes in the economy associated with the 
Great Recession, and I think our education and training system 
is not very nimble in this country.
    So, for instance, employers will talk about they need 
welders. There are tens of thousands of unemployed welders out 
there, but they don't have the particular kind of skill that 
those employers are looking for. And we do not have a very good 
system to help those employers retrain, or retool the welders 
who are out there, to get them to meet their specific skill 
needs.
    So I think both because of the general lack of supply 
keeping up with demand, as well as this specificity problem, 
this mismatch problem, I think it tends to be growing over 
time.
    Vice Chairman Brady. Thank you all very much. Mr. Chairman.
    Chairman Casey. Thank you, Mr. Vice Chair. Senator 
Klobuchar.
    Senator Klobuchar. Well thank you very much, Chairman 
Casey, and thank you, Vice Chairman Brady, for holding this 
hearing today.
    My State has hung in there during the economic downturn 
because of manufacturing and companies like yours, Mr. 
Wetherington. I remember that I noticed there was a marked 
difference at the beginning of this year when I was back on the 
weekends and they were running 24/7, a lot of companies with 1 
to 200 employees, and that is partly why we are at a 6.6 
percent unemployment rate. We will see what the shutdown does 
to that, but 6.6 percent unemployment rate, and a lot of it has 
to do with manufacturing.
    And one of the things I have learned from visiting five or 
six technical colleges in the last few months is just what I am 
hearing today. And that is, that there is this mismatch. And in 
fact some of them--Alexandria Tech, which is one of the best 
ones in the country--has a 96 percent placement rate right now. 
Yet we have students that are going and getting four-year 
degrees that are unable to get jobs.
    So there is clearly a devaluing, I think, in our system 
right now of some of these two-year technical degrees. The math 
and science preparation that you were talking about, I have a 
bill with Senator Scott Brown called ``Innovate America'' that 
is cosponsored by Senator Warner and Lamar Alexander, to number 
one, double the STEM high schools, but number two, to look at 
the kind of equipment we have at technical schools. And if 
there is a way to make it easier with tax credits for 
businesses to donate equipment so that they are being trained 
on the top equipment.
    I heard that exact story when I was in AgCo about the 
welders. Dr. Holzer, AgCo has nearly 1,000 employees in 
Jackson, Minnesota. They make agriculture equipment. And I 
asked, you know, he said we can't find a welder in Minnesota 
right now to fill this job.
    So for anyone watching on C-Span, they need a welder in 
Jackson, Minnesota. And they cited the reason as the nearby 
technical school had stopped training in that area.
    So my question is a more general one. I would just add one 
little footnote, that I do agree that these rules, a lot of the 
rules we are dealing with, I see it every day with medical 
devices, have to be changed. We are no longer competing in a 
vacuum in this country; we are competing against companies in 
other countries in Europe, for example, that may have just as 
safe a system but things go faster. Approvals get made quicker. 
They have found a way to do it, and we are better than Europe 
in other ways, as well. But I just think that we need to look 
at our whole regulatory system and make it work better.
    But I want to focus more on the training today. So my 
question would be: This idea of when kids are in high school 
and they want to go into--they are trying to decide what to go 
into, how do you think we can better integrate our high schools 
with the two-year degrees and get more kids focused on these 
two-year degrees?
    I know it works best on the community college level. 
Rochester, Minnesota, they say, oh, we need 20 new nurses at 
Mayo. So that community college trains those nurses. But how do 
you think we can do it better?
    I guess we'll start with you, Dr. Holzer.
    Dr. Holzer. Senator, I think we have really devalued high-
quality career technical education in America, and I think that 
is very unfortunate. What we used to call ``vocational 
education'' is not necessarily what I have in mind.
    What I am talking about is the career academies, 
apprenticeships. What I envision is a system where the kids who 
get that career technical education are not getting tracked out 
of college. They should come out with college-ready skills out 
of high school to prepare them for two-year or four-year. But 
also some career-ready credentials right now. And the career 
academies and high schools have been rigorously evaluated and 
are very, very effective at doing that, and many apprenticeship 
programs as well.
    I think in our fear of tracking we have not effectively 
developed that, and we have focused too narrowly on four-year 
college as the necessary route for everybody.
    I think the other thing, at the level of community 
colleges, I think sometimes we have too little information 
available to students at community college about what careers 
are in high demand. In fact, I have learned some of this from 
Ms. Furchtgott-Roth's papers with Lou Jacobson and others. Too 
little information, too little career counseling is available. 
And also, the incentives are not very strong on the 
institutions to be responsive.
    Now you think of most community colleges in the country, 
they get the same subsidy per student from the state, 
regardless of whether that student is getting technical 
training or basket weaving. And maybe we need to realign the 
incentives, as well as the information, to make sure that those 
systems are better aligned with the demand side of the economy 
in those states.
    Senator Klobuchar. So you would do something where the 
subsidy would be tied to, what, the graduating people that are 
getting jobs?
    Dr. Holzer. Right. And I think you need to be careful 
because badly designed performance systems can do a lot of 
harm.
    Senator Klobuchar. We were just dealing with this with some 
of the for-profit colleges. But how you do that is to direct 
those subsidies to actually getting results.
    Dr. Holzer. Looking at the placement rates, the earnings, 
et cetera.
    Senator Klobuchar. Okay. Does anyone want to add?
    Mr. Painter. Senator, I would just add that in many places 
dual enrollment, where a young person can be in high school and 
can be taking college-level courses, has produced outstanding 
results, where students are--I was at a meeting last week, and 
someone was telling me about a project where the student 
actually walked across the stage to get their associate's 
degree before she walked across the stage later in the week to 
get her high school diploma.
    I think there are examples of that throughout the country. 
I think one of the other things is that many Workforce Boards 
throughout the country have developed great expertise around 
labor market information, in part because they are pursuing 
sector strategies.
    They are now working with the PK through 12 system and into 
the community colleges, and with them, so that students better 
understand what is the labor market that is happening in their 
region.
    When I was in Pittsburgh, we actually did work with the 
Career and Tech Center in Allegheny County to look at what are 
the curricula that they are offering. What are the industries? 
What are the skill sets that are being required across the 
region to better align what it is they were doing, to what we 
saw as the labor market needs.
    So I would agree. I think in the reauthorization version 
that we have seen, elevating the responsibility and charging, 
directly charging the Workforce Boards to provide that kind of 
labor market information and that kind of work with the PK-12 
system is also a significant way that we can increase people's 
understanding of what are the options and opportunities in 
their regions.
    Ms. Furchtgott-Roth. In our data from Florida where we 
looked at low-performing C students, we saw that if they got an 
AA or a community college degree in one of the health care 
professions, or a similarly high-return field, they were 
earning $45,000 a year after two years, or $60,000 after about 
seven years--$45,000 when they got out after their degree.
    But if these same students started on four-year degrees, 
they were likely to drop out. And even at the end of the four-
year degree, their salary would not be as high.
    So the question is: Why aren't more of these kids going to 
these high-return fields? They need more advice. They need to 
be told: If you do this degree, then you would be able to get 
this job. They need advice on financial aid. And many of these 
kids come from families that cannot give them advice, and they 
don't have the proper guidance counselor.
    If I could add one more point about the structural 
situation, it used to be when home values were high it would be 
easier for all these welders that Senator Klobuchar is talking 
to on C-Span to move to Minnesota. But for some of them, their 
homes have lost value, and it is much harder to sell houses 
right now. So mobility, geographic mobility has declined, and 
that is a structural problem.
    Senator Klobuchar. Good point. Thank you.
    Chairman Casey. Thank you, Senator Klobuchar. Congressman 
Duffy.
    Representative Duffy. Thank you, Senator. Quickly, I have 
northwestern Wisconsin as my district. Our economy is based for 
the most part on farming and manufacturing. So manufacturing is 
a very significant part of what we do in central and northern 
Wisconsin.
    When I'm talking to our manufacturers, I hear a couple of 
different things. I am hearing things about how there is a need 
to find skilled labor. And there is an issue of finding skilled 
labor that can address the needs that they have in their 
industries.
    In addition to the uncertainty that you have all 
referenced, there is also the uncertainty that is coming from 
Washington. I am hearing all of these concerns coming from 
manufacturers and how this makes things more difficult for them 
to expand, and grow, and hire.
    Getting to the points that we are talking about today with 
regard to education, if we were to point blame, if you want to 
call it ``blame,'' on a certain sector, don't we want our 
education institutions to look to the manufacturing base to say 
what skills do you need? And then provide these educated kids 
that are coming to their institutions with the proper 
education? Where are we pointing the blame here, is basically 
my question, if there's blame to be thrown around?
    Mr. Holzer.
    Dr. Holzer. I would rather not throw blame, but frankly, I 
come from the world of higher education. It is not a system 
that is oriented towards industry, towards meeting industry 
needs. The liberal arts system, which often prepares 
undergraduates for further graduate study--and there are things 
to be said about that, because they get strong general skills--
but you might think that our two-year colleges, and actually 
Wisconsin has one of the best technical college systems that is 
well-oriented towards industry. But so many of our community 
colleges do not think of themselves as institutions feeding 
industries and the labor market. They think of themselves as 
institutions of higher education, and their primary aspiration 
is to feed the four-year system with students.
    So I don't know if I would blame them, but again I would 
prefer to see a set of incentives developed where they pay more 
attention to the industries in their states. As Mr. Painter 
said, the data are increasingly available, if people want to 
look at it, and the incentives could perhaps be realigned to 
encourage more of that.
    Representative Duffy. And I've witnessed systems target 
education toward industry. Specifically, North Central 
Technical College in Wausau is one who reaches out to the 
manufacturing base and says: What needs do you have? How can we 
provide a program to our students that are going to meet the 
needs of your business?
    And I guess I don't know that we need to provide more 
programs from government to encourage other institutions to 
target education to industrial jobs. Hopefully they would look 
at different states where technical colleges are successful and 
try to modify their programs or like the programs that are 
successful in other areas of the country.
    Ms. Furchtgott-Roth. These community colleges can turn on a 
dime. They don't have the tenured professors. If people sign up 
for the courses, then frequently the courses are offered. But 
if they don't sign up for the courses, then it is difficult for 
community colleges to offer them. We need more information to 
get to these students and to young people saying, ``If you want 
to be a welder, that is going to pay $60,000 a year.'' I think 
most kids don't know that.
    There is, however, a problem with some community colleges 
turning away applicants for high-return fields such as nursing. 
They are overwhelmed with nursing students. And they cannot 
meet that demand. And that would be something that they need to 
look at.
    Representative Duffy. And to that point, I hear some of my 
manufacturers say: Listen, you are driving in a certain quality 
of student into this field when we need some smarter, higher-
educated kids to come into manufacturing because they are high-
skill jobs.
    I don't know if it is our high schools or our colleges not 
driving some of the better-performing students into these 
fields. Mr. Wetherington.
    Mr. Wetherington. Yes. Your question was on blame. As a 
manufacturer and engineer, I like to think about root cause.
    Representative Duffy. There you go.
    Mr. Wetherington. And I don't----
    Representative Duffy. Much better.
    Mr. Wetherington [continuing]. It's a very complex problem, 
so I don't think there is one cause. But I am very encouraged 
that the question was raised about the supply side into the 
technical schools and the community colleges, and that being 
high schools.
    We have gotten to a metrics system, as Dr. Holzer 
mentioned, a well-meaning metrics system that has driven our 
high school administrators to be totally measured on the number 
of students in GT programs, AP programs, and their performance 
in getting kids into four-year colleges.
    Congressman Lipinski raised Germany as an example earlier 
today of a market that has not lost the skill set. They have 
not lost the manufacturing base. In Germany, it is a very 
desirable thing to go down that path of becoming a journeyman 
technical person that works in the welding industry, the 
electronics industry, the running CNC machines, being a tool 
and die maker. We have gotten to where there has been a stigma 
on the fact that, if you don't go to a four-year college, you 
are a failure, and that is really I think very fundamental in 
getting at the demand piece for what the junior colleges are 
teaching.
    If people are coming to them and wanting the trades, they 
are going to offer that.
    Representative Duffy. I yield back.
    Chairman Casey. Thanks, Congressman. We will go to a second 
round now.
    I wanted to go back to Mr. Painter to focus on an issue 
that I raised with regard to one of our community colleges, 
Westmoreland County. The grant that they received is focused on 
what is now basically a new industry in our state with the 
Marcellus Shale gas extraction, which is leading to a lot of 
job creation and really a new industry in addition to a new, 
relatively new, or at least new to Pennsylvania in great 
quantity, source of energy.
    What you have is an emerging industry that is creating 
jobs, but one of the concerns in the job creation area is that 
it will be job creation but maybe not enough of a nexus to job 
creation strategies that start with or have their origin in 
what happens in a community college.
    So this particular community college got a grant for a 
pilot program. I wanted to ask you about that in terms of the 
value of that, having a pilot program that is housed in a 
particular community college that is tied to a specific 
industry--in this case, hydraulic fracturing in the Marcellus 
Shale Region.
    What is your sense of that? And how do you think that works 
as it relates to other communities and other pilot programs?
    Mr. Painter. Let me say first that Westmoreland Community 
College is a very familiar institution for me, having come from 
Pittsburgh. Westmoreland Community College, along with the 
Westmoreland Fayette Workforce Board and my former Board at 
Three Rivers helped anchor an industry sector partnership 
around energy that included Workforce Boards from western 
Pennsylvania, eastern Ohio, and northern West Virginia.
    So the grant was a collaborative effort of about six 
community colleges from three states, and about seven Workforce 
Boards from those same three states. So there was a lot of work 
that preceded that grant application around understanding the 
market, lots of employer engagement in terms of where were the 
occupations inside the energy industry. The Marcellus Shale 
Project, as you mentioned, is one that is emerging. Part of 
what is happening in Westmoreland County is a very strong 
partnership with Valerus, which is an oil and gas company out 
of Texas that is working in the Marcellus Shale Region in 
Pennsylvania. That is a project where the training is about 
four months. It is very specific to that industry, so the 
industry was involved in designing that curriculum that they 
are working on.
    To the broader partnership with the community colleges, it 
is very essential. Community colleges are the favorite training 
place for the workforce development system. In part, as was 
mentioned earlier, they are very flexible; they can adapt 
programming. We can look at industry-recognized certifications, 
so they are a great partner for us to have in the system.
    What we try to do at NAWB is to take those lessons that we 
are seeing from those pilot projects and, through both our 
annual forum and through workforceinvestmentworks.com, and 
other sites, is to help people understand that those kinds of 
promising practices are out there.
    Westmoreland is not alone. Again, as I travel the country--
which I do about 25 weeks a year--there are examples of where 
that has happened all over the country.
    Chairman Casey. And I guess undergirding that kind of 
decision where you have a grant funding that is provided to a 
pilot program, what undergirds that I guess is a lot of 
intensive engagement between and among not just community 
colleges and employers but a lot of folks in a region. And you 
described it in southwestern Pennsylvania, even going beyond 
the state lines of southwestern Pennsylvania into other states.
    Mr. Painter. It was, and part of that was, again, we 
believe that the Boards are very critical. Because when it 
takes a community looking at the different issues about having 
people prepared for learning, Workforce Boards working with the 
PK-12 system, working with community- and faith-based 
organizations, so that the community understands: here is the 
labor market we're in, and here is the potential. Workforce 
Boards work closely with economic development to understand 
where those investments are being made, so that again we look 
at the labor market as we see it. But also Boards increasingly 
are looking at the labor market to understand where are the 
skills going in the industry sectors that drive our economy.
    So we're closely working with economic development, closely 
working with education.
    Chairman Casey. Thanks very much. Vice Chairman Brady.
    Vice Chairman Brady. Thank you, Chairman.
    Is it cold in here, or is it me?
    [Laughter.]
    Chairman Casey. High level of air conditioning.
    Vice Chairman Brady. I think we need to hand out Snuggies 
here lately.
    [Laughter.]
    And they have sleeves, so we will be able to continue to 
work. Is this Minnesota weather we've got here?
    Senator Klobuchar. Budget cuts.
    [Laughter.]
    Vice Chairman Brady. I would like to thank the witnesses 
for pandering to our state interests. We appreciate it a great 
deal.
    [Laughter.]
    Vice Chairman Brady. Thank you for raising the issue of 
energy manufacturing. It's a major part of our economy. And 
while Washington likes to sort of play the blame game on U.S. 
energy companies, the truth of the matter is that in a huge 
part of the economy most of the work is done by independents--
you know, smaller companies that have a big impact on our 
economy.
    There is an industry, a manufacturing industry, where their 
workers are aging out. There is a great demand, continued 
demand, not just in the oil shale discoveries but in the 
traditional oil and natural gas, where the broad range of 
skills that are needed--not just the oil rig worker you're 
thinking about--but from R&D to technical skills, geophysical 
analysts, all that, really is remarkable. And we would miss a 
bet if we don't apply some job training resources to moving 
people into that field, which again is very high paying.
    I wanted to ask each of you. Right now I am just not 
convinced we are doing the job training the way we ought to. 
The number of programs we have got, the eligibility 
requirements, the bureaucracy of it, the fact I do not think it 
is customer-driven like it ought to be, is a concern. I am 
convinced we can do better.
    I would like to ask each of you, we had 8\1/2\ million 
people seek job-training services last year in America. About 
half of them got jobs over the next--or will get jobs over the 
next two years.
    What is the one change we need to make in Washington to 
make those programs more successful? I will start with you, Mr. 
Painter. What is the one change you would make?
    Mr. Painter. Thank you, Congressman. We would go back and 
say that local, business-led Workforce Investment Boards who 
are held responsible for strategically planning for the federal 
and state investments in workforce, and who are afforded the 
opportunity to have input into the planning for other funding, 
and have the results come back to the Boards. So that we can 
look at where the alignment and the coordination of these 
resources are happening for the best interest of job seekers 
and businesses in our regions.
    Vice Chairman Brady. Can I tell you, at the local level, 
having served on one of those Boards, the feeling is just the 
opposite. You are living in deathly fear of not being within 
the boxes that are required from Washington. And, you know, if 
we can increase the amount that's generated from the local 
level and the feeling that they have that ownership, I think 
you're right that that would be helpful.
    Mr. Wetherington.
    Mr. Wetherington. Yes, I would say standardized, industry-
recognized, industry-developed job skills credentialing would 
be very critical. So that not only do you get the customer's 
voice in what is needed, but then as a manufacturer when I am 
out in the job place looking to hire, I have got a 
credentialing that helps me to know that this guy is not just a 
welder. He is the welder I need for this job.
    Vice Chairman Brady. Thank you. Thank you. Great idea.
    Ms. Furchtgott-Roth. I would block-grant the funds and give 
them to individual states. We in Washington cannot tell what 
each of the 50 states need. They all have different needs. They 
should be able to set up their own systems at the state, or at 
the local level and figure out how to make the best use of the 
funds.
    Vice Chairman Brady. Thank you.
    Dr. Holzer. I would also target grants to the states to 
better integrate their education systems at the two-year and 
four-year level, their workforce development with their 
economic development.
    There are a set of changes that can be made in WIA, 
simplifying the performance measures and supervising these 
industry credentials more. I don't think it can be done without 
resources, frankly. I think the resources right now are too 
low.
    Vice Chairman Brady. On a scale of 1 to 10, with 10 being 
employer-driven, locally driven job training programs, where do 
we rate right now, would you guess? With 10 being what we ought 
to be doing?
    Mr. Wetherington. The need, or what we have?
    Vice Chairman Brady. What we have today.
    Mr. Wetherington. A 2 or a 3.
    Vice Chairman Brady. Thank you. Yield back, Mr. Chairman.
    Chairman Casey. Thank you, Vice Chairman Brady. Senator 
Klobuchar.
    Senator Klobuchar. Thank you very much. When I asked my 
open-ended question, I know, Mr. Wetherington, you were just 
dying to answer it. So if you wanted to add anything about this 
idea of how you integrate better the high school system with 
the technical colleges?
    Mr. Wetherington. I have to admit that I hijacked 
Congressman Duffy's question a little----
    Senator Klobuchar. I heard.
    Mr. Wetherington [continuing]. Bit to get my answer in.
    Senator Klobuchar. Okay. Good.
    Mr. Wetherington. But I do appreciate that you recognized 
those ties between the starting earlier in that demand process.
    Senator Klobuchar. Right. The other thing I wondered about, 
if any of you had any comments about, I'll raise briefly the 
equipment that these students train on. Because I have had 
several of our companies talk about how, you know, they are two 
or three years ahead. They end up donating sometimes, and how 
we could better incentivize that.
    And then secondly, this idea--which I found captivating--of 
how the community colleges/technical colleges have changed how 
they view the world. Because I have found the ones most 
successful in our state, they literally view these businesses 
as their customers. And so not only do they ask them where they 
should be training, they actually go on site and train, or do 
it by video with these rural manufacturing companies. And so 
they train existing workforce on how to run the next computer 
system that is running the new assembly line at the paper mill. 
Because that was another thing I was struck by, by--I think was 
it your testimony, Ms. Furchtgott-Roth? So I wondered if you 
could comment on those two things: the equipment, and then also 
how you get the technical colleges to better fit this model 
that some of us have been talking about.
    Mr. Wetherington. I can give a quick example. In my prior 
life, I was with General Electric. We opened up a new plant, 
and one of the things we did with the local community college 
was actually invested in putting equipment into that facility 
before we moved it into the plant.
    We moved it into the community college so that we could do 
job training there, and actually running eight-hour shifts. So 
you even did work hardening, getting people ready to do that 
job on a regular basis.
    So I think it is an example of where there is a partnership 
between the industry that needs the job, the local community 
college, and even the suppliers of the technologies themselves 
who are going to benefit from having end-users buy their 
equipment working together at a local level to make sure that 
they're firing rifle shots, not shotguns.
    Ms. Furchtgott-Roth. And we unfortunately have a 75 percent 
graduation rate in high schools. If we could take some of these 
students who might otherwise drop out and put them into 
community college-type programs in 11th and 12th grade, some of 
them who might not want to study Excel spreadsheets in the 
classroom might want to do it if they are thinking about 
automobile parts on an assembly line. That might excite their 
interest more.
    But again there does seem to be a bias against having 
students go into vocational education at that age. Even though 
we are willing to let them drop out of high school----
    Senator Klobuchar. Right.
    Ms. Furchtgott-Roth [continuing]. We are not willing to set 
up vocational education programs.
    Senator Klobuchar. Didn't we use to have those? I mean, I 
remember in high school----
    Ms. Furchtgott-Roth. Yes, we used to----
    Senator Klobuchar [continuing]. In public high school in 
the suburbs, we had a number of kids that would go to votech 
training in their junior and senior years. And back then it was 
not nearly as technical and--based on what I've seen, it was 
mostly about repairing cars and things. And obviously it has 
gotten much more expansive than that.
    And what happened? Did we stop doing that because we're 
afraid of the tracking? Is that what----
    Ms. Furchtgott-Roth. Exactly. We are afraid of the 
tracking, but we do not seem to be afraid of 25 percent of high 
school students dropping out.
    Senator Klobuchar. No, it does not make any sense.
    Ms. Furchtgott-Roth. It is a national tragedy.
    Senator Klobuchar. I agree. Dr. Holzer.
    Dr. Holzer. Senator, I agree with these comments. But you 
asked about equipment, and what you often find is that, in some 
of the high-demand fields like health technology, the equipment 
is expensive, and the instructors are expensive, more so than 
in a lot of the other fields.
    So again it is a resource issue that community colleges, 
who are very cash-constrained and facing a lot of different 
pressures right now, they do not face the incentives, and they 
do not have the resources to invest in the higher-cost 
structures and the higher-cost equipment right now.
    And again, students who are trying to take the health tech 
classes, or the nursing classes, and the classes are 
oversubscribed. The institutions do not have the resources or 
the incentives to expand capacity in those areas because it is 
expensive to do.
    So again, unless we either provide more resources or create 
a set of incentives for the community colleges to spend their 
money that way, I don't think that they have a particular 
interest in doing that. And so we have to look at the resource 
needs and the incentives to invest in capacity in these areas.
    Mr. Painter. Senator, I would simply say that I think part 
of this issue is not even a federal issue. It is that community 
colleges in many cases are funded under formulas of one-third 
student/one-third local/one-third state, or some combination of 
that. And in many cases, or in some cases what is reimbursed is 
higher for academic than it is for what we are talking about 
here today for workforce development skills.
    So I think we have a long way to go to convince people of 
the perception that this is not, you know, our fathers' votech; 
this is in many cases a very sophisticated system that students 
are running into. And I think you have examples of some schools 
where they have kind of turned a corner by adding courses like 
robotics, adding courses like engineering as part of not their 
academic program, but as part of their vocational program, to 
point out that these programs do require higher-level academic 
skill sets.
    And I think there has been good research that shows 
students who come through those two years of vocational 
education do very successfully when they go on to college. So I 
think we need to tell people more of that. They need to hear 
more of that.
    Senator Klobuchar. Well they also can be successful with 
their degree, I mean from what I've seen in some of these 
places.
    Mr. Painter. Absolutely. We work with a local high school 
that did Cisco Certification, and those students graduated from 
high school, no postsecondary, and successfully went into the 
labor market.
    Senator Klobuchar. Exactly. All right, thank you very much.
    Chairman Casey. Thank you, Senator. Congressman.
    Representative Duffy. Thank you, Senator. I think it is 
pretty clear we are under immense competition from around the 
world, right? India, China, Vietnam, Mexico. And we want to 
maintain a great level of payment to our folks who are working 
in our manufacturing industries.
    Is it fair to say that the best way we do that is to make 
sure that our manufacturing base is the most educated, 
smartest, most productive base in the world? And if you look at 
what we are doing here in America, as opposed to the previous 
mention to Germany in the past and other industrialized nations 
that have good-paying jobs, how are they doing it different 
than we are? Are they more successful than we are in marrying 
out the skilled labor force to the jobs market?
    To anyone on the panel.
    Dr. Holzer. Well I think Germany does have a system of a 
strong apprenticeship system, a strong system of technical 
education that is more industry-oriented. A couple of others, 
as a matter of fact. I think frankly students coming out of the 
equivalent of their K-12 system probably come out on average 
with stronger basic skills. And you do need a solid base of 
basic reading and writing skills to be able to handle some of 
this more technical training.
    So I think, especially if we look at the bottom quartile of 
our students, they often do not have that base of solid--and 
again I am not talking about algebra 2. Too many states have 
worried about algebra 2. The issue is not algebra 2. It is 
solid basics of reading, writing, and communicating. So I think 
that is one area where we fall behind.
    But, secondly, some of these places like Germany are not 
scared of having a strong technical system at the secondary and 
post-secondary level, a strong apprenticeship system, and they 
are not so narrowly focusing on higher ed the way we do here.
    Representative Duffy. Do you guys agree with that?
    Ms. Furchtgott-Roth. Well I would also like to say that we 
have many regulations here that they do not have in some of 
these other countries. And if we look at where manufacturing is 
increasing, in China, you know that if Boeing had moved its 
plant to China then the NLRB would not have been able to go and 
close it down.
    Foreign companies are drilling for oil right over our side 
of the line off the coast of Florida. There is a Sino-Cuban oil 
drilling operation. China is importing our coal. We exported 
about 80 million tons of coal last year. China is buying our 
corn. And they do not have many, many of these regulations that 
our manufacturers have to comply with.
    We need to think about making our country the most 
business-friendly place to operate.
    Representative Duffy. And to that point, there was a recent 
study that came out of the National Association of 
Manufacturers that indicated that it is 18 percent more 
expensive to manufacture in America, even after you take out 
the labor costs. And I think that goes to your point that our 
regulation side is so much higher than other parts of the 
world.
    And that does not mean that we do not want to have clean 
air and clean water, but when it is so much greater than other 
countries it creates a drag. Is that fair to say?
    Ms. Furchtgott-Roth. Yes, that is absolutely right. And 
Boeing, for example, is going to have to go through two years 
of litigation to find out whether it will be able to keep its 
plant in South Carolina. The Kauffman Foundation just brought 
out a 400-page volume called Rules for Growth, showing 
different ways that litigation is reducing our GDP growth, the 
ways that that can change relatively costlessly to enable us to 
create more high-growth companies.
    Representative Duffy. And I think you made the point 
earlier where if Boeing was going to leave Washington State and 
go to China, the NLRB cannot do anything about it.
    Ms. Furchtgott-Roth. Exactly. And Boeing would not be 
involved in two years of litigation, costing millions of 
dollars.
    Representative Duffy. But they moved to one of the other 49 
states, and here they are tied up in two years of litigation. 
And I find it interesting that we do not see businesses leaving 
right-to-work states, like Georgia, Tennessee, South Carolina, 
and Texas, and going to our heavily unionized states. We 
actually see the reverse happening. We see, you know, the 
heavily unionized states seeing a loss of their manufacturing 
base going to right-to-work states because it seems to be more 
competitive. Is that a fair statement?
    Ms. Furchtgott-Roth. Yes. That is a fact. The 2010 Census 
shows the movement of Americans also, not just jobs, but 
Americans following jobs from the unionized states to the 
right-to-work states. That is why right-to-work states are 
going to be picking up more Congressional seats.
    Dr. Holzer. I have to disagree. Let's be honest. We have 
the private-sector workforce unionization in the United States 
now at 7 percent.
    It has dropped from 35 percent back in the 1950s, and to 
somehow argue that the 7 percent unionization rate is 
responsible for declining manufacturing employment doesn't make 
sense. Frankly if you compare it to Germany, we all agree that 
Germany has been much more successful at maintaining its 
manufacturing base and the rate of unionization there is much 
higher.
    Many of the regulations protecting workers in Germany are 
higher than here, so I think sometimes we are whipping a horse 
that's already dead--not completely dead, but that has shrunk 
dramatically in size.
    And I think if you look at the pressure American 
manufacturing is under compared to the trends in unionization, 
they move in fairly opposite directions.
    Representative Duffy. Can I just have 30 more seconds?
    Chairman Casey. Yes.
    Representative Duffy. If you look at the facts, though, we 
are seeing our manufacturing base leave the Michigans, New 
Yorks, Ohios, and Pennsylvanias and truly are going to right-
to-work states. If it is not the union issue, what do you 
attribute that to?
    Dr. Holzer. I think those manufacturers may prefer--yes, so 
we are having a shell game. And when you set up a situation 
like that, sure, they would prefer the lower costs. But when 
you do a fair analysis across countries, we have all lauded the 
wonderful German system. Germany has higher rates of 
unionization than the United States and does not have 
particularly lower regulations.
    So I think, frankly, you know, we can talk about the Boeing 
case, but that is a tiny part. That is one case. We have lost 
millions and millions of manufacturing jobs, and I do not think 
we can attribute that nationwide--not a shifting from Michigan 
to South Carolina--nationwide, and I simply do not think we can 
blame that on unionization.
    Representative Duffy. But is it one case that has a truly 
chilling effect on the whole manufacturing industry as a whole, 
as a test case, that manufacturers have to consider where they 
set up shop because of this new rule?
    Dr. Holzer. Again, I would argue when you look at the long 
decline in manufacturing in the United States, at a time when 
unions have been declining, you simply cannot explain the 
decline in manufacturing employment with the trends in 
unionization. It simply does not work.
    Mr. Wetherington. But it is a bit like handing a man who is 
drowning a 100-pound weight. It certainly is not helping the 
process. And I think the issues of regulatory predictability, 
more than anything else, is really the key for manufacturing.
    Manufacturers are resilient. We can figure out how to get 
it done, but we need to know what the landscape is going to be. 
But with constantly shifting regulatory landscape, 
manufacturers are hesitant to invest in growth here.
    Representative Duffy. Thank you. I would yield back.
    Chairman Casey. Thanks, Congressman. Sometimes it is good 
to let the time go by a little bit. That was a good debate, and 
I would put myself in Dr. Holzer's side of that debate, for the 
record, if anyone would be surprised to know.
    Dr. Holzer, I wanted to go back to a point you made 
earlier. I do not have a sense of what you would say about this 
link I will make, or this connection I will make. You talked 
before about we often have trouble with linking or coordinating 
programs. And one of the urgent problems we have in the country 
now is not just unemployment, more than 14 million people out 
of work, but the long-term number is above six, I am told, 
somewhere in the 44 percent of those unemployed.
    In other words, long-term out of work six months or longer. 
So it is a horrific problem and a nightmare for individual 
workers and their family. And one of the casualties of that of 
course are children.
    Do you have any thoughts you have on making that kind of a 
link or coordination where you have strategies, workforce 
strategies, to get people into the workforce, or job creation 
incentives to get people to find a job? Sometimes it's not 
coordinated well with other aspects of either federal or state 
government investment.
    I am thinking about Head Start, or programs like that. Is 
there a way to, or should we figure out or strategize in a way 
so that you are linking programs that will help a child with 
programs that are focused on the long-term unemployed of a 
particular adult in that family? Any thoughts you have on that?
    Dr. Holzer. I am not sure how those need to be coordinated. 
I agree with you that children in the families where the heads 
of the households that have become permanently dislocated from 
their jobs, those children do often suffer. And there is strong 
research evidence that shows that their own educational 
attainment suffers later. The stress on the family hurts them.
    So I think we need to be mindful of that and to have a set 
of supports in the schools for those children. There is a 
separate issue about what we do for their long-term unemployed 
parents, and they are going to have a harder time getting back 
in the workforce.
    I think, until job creation picks up a little bit and we 
have a better sense of where the growth is going to be, we have 
to sort of help the local Workforce Boards and the local one-
stops to again better anticipate where those jobs are going to 
be and see where they can help place some of these long-term 
unemployed--depending on the skill sets that they themselves 
bring in. So it is a little hard to predict that in advance 
right now, but I think it is something that the Workforce 
Boards and the one-stops have to be cognizant of that it is 
going to be an important issue, just given the numbers you 
cited.
    Chairman Casey. Well I am grateful. I know we are out of 
time, and we are little bit over--not too much over--but I want 
to thank each of our witnesses for your testimony. As I 
mentioned before, your full testimony will be made part of the 
record. And of course if you wanted to supplement it with 
further testimony or information, you can certainly do that.
    The record will be open as well for members of the 
Committee to submit questions. We will try not to burden you 
with too many extra questions that you answer in writing, but 
if members of the Committee want to submit either testimony--I 
should say statements, or questions, we can do that. And unless 
my staff tells me I have not done anything or I missed 
something, we will stand adjourned. Thank you very much.
    [Whereupon, at 12:02 p.m., the committee was adjourned.]

                       SUBMISSIONS FOR THE RECORD

          Prepared Statement of Representative Daniel Lipinski

    Chairman Casey, Vice Chairman Brady, members of the committee, 
thank you for inviting me to testify at today's hearing.
    Americans need jobs. This fact was emphasized once again last 
Friday with the release of June's unemployment numbers. And Americans 
are asking: ``Where are these jobs going to come from?'' While some 
believe America can no longer compete in manufacturing, I say robust 
job creation can and must come from manufacturing--from what we think 
of as traditional manufacturing, such as Northstar Aerospace in Bedford 
Park, Illinois, that makes parts for the Apache helicopter, to Advanced 
Diamond Technologies in Romeoville, Illinois, that makes coatings for 
artificial heart valves. Manufacturing in all its forms is critical for 
America's economic future and for our national defense.
    So how do we get there? One piece is clearly workforce training. It 
is simply not the case that when a manufacturer is ready to create a 
new position there will be an American ready to start the job. I 
constantly hear from manufacturers in my district, which has a long and 
proud history of small manufacturers, that they are having an 
increasingly difficult time finding qualified workers. This is true for 
all types of manufacturing--from steel to nanotechnology. If there is 
no qualified worker, there is no new job.
    This dynamic creates the need for a two-pronged approach to worker 
training and workforce development: one that is focused on improving 
our K-12 education system so that students have the necessary basic 
skills for the jobs of today and tomorrow and the other focused on 
posthigh school training and retraining that improve the skill sets of 
workers.
    One way to identify and devote the necessary resources for the 
nation's manufacturing workforce is through the development of a 
national manufacturing strategy, something that this committee explored 
in a hearing last month. HR 1366, my National Manufacturing Strategy 
Act, would require government and private sector stakeholders to assess 
the current state of American manufacturing, look at future 
technologies and economic challenges, and develop a plan for keeping 
America's industry competitive. Manufacturing strategies can work in 
high-wage free market democracies; just ask Germany which runs a robust 
trade surplus.
    But of course, we cannot await a national strategy to address the 
workforce needs that our nation currently faces.
    In grades K-12, students must be better educated in Science, 
Technology, Engineering, and Math, commonly known as the STEM fields. 
We all have heard countless times how American students are falling 
behind others around the world. Provisions of the America COMPETES Act, 
along with its reauthorization which I helped author and pass last 
year, seek to improve STEM ed by calling for a wide range of 
initiatives, including better teacher training and hands-on learning at 
National Laboratories, to boost interest and improve education in STEM 
fields at all levels. Private industry has also gotten involved. Abbott 
Labs has invested more than $25 million over the last 5 years to 
support programs from early elementary to college that advance STEM 
education. In classrooms, museums, and after-school programs, these 
investments are tailored to build a workforce prepared for the 
increasingly technical job market.
    At the posthigh school level, training and retraining initiatives 
can produce workers capable of filling the growing number of highly 
technical manufacturing jobs. In June, President Obama expanded the 
Skills for America's Future program to increase partnerships between 
manufacturing companies and community colleges. This initiative will 
establish a standardized credentialing system, certifying community 
college students with industry-recognized credentials and making it 
easier for employers to find potential employees.
    The America COMPETES Act reauthorization also included a provision 
to implement grants aimed at expanding education and training in 
advanced manufacturing at community colleges and requires Manufacturing 
Extension Partnership Centers to inform colleges of the skill areas 
manufacturers need so students are prepared to join the workforce upon 
graduation.
    American industry has also been a leader and innovator when it 
comes to workforce development at the posthigh school level. One 
example is the Steelworker for the Future initiative, a public-private 
partnership including ArcelorMittal, the United Steelworkers, and 
community colleges, which will pay for students to receive the 
technical training necessary to fill highly skilled positions 
throughout the nation. Not only does this program develop the skills 
necessary for sustaining the increasingly high-tech steel workforce, it 
also helps grow interest in manufacturing jobs.
    But we cannot rely on the private sector alone to make the 
investments and develop the programs that will ensure that the United 
States has the skilled workforce our economy needs. Through smart 
investments, incentives, and well-designed programs, we must continue 
to support workers gaining, sustaining, and improving the skills 
necessary to support American manufacturing success.
    I am convinced that if we do not make a concerted effort to produce 
the workforce needed by manufacturers that it will mean nothing less 
than giving up on much of the middle class, throwing in the towel on 
``Made in the USA,'' and accepting that everything we buy--even 
equipment needed for national security--will be made somewhere else. We 
cannot allow this to happen.

                               __________
Prepared Statement of Representative Kevin Brady, Vice Chairman, Joint 
                           Economic Committee

    I am pleased that Chairman Casey convened this hearing on job 
training and manufacturing.
    Manufacturing in the United States has changed dramatically over 
the last 60 years. Low-tech, labor-intensive goods such as apparel, 
shoes, sporting goods, and toys that were once made in America are now 
imported, while U.S. manufacturers export high-tech, capital-intensive 
goods to the rest of the world.
    Computer-driven machinery has replaced routine labor in 
manufacturing. This has boosted productivity growth, averaging 2.9 
percent a year. What took 1,000 workers to manufacture in 1950 now 
takes only 184 workers. Consequently, manufacturing jobs as a share of 
total nonfarm jobs have declined from 30.6 percent in 1950 to 8.9 
percent in 2010.
    Six decades ago, a high school dropout with no special skills could 
get a job on an assembly line, work hard, and over time enter the 
middle class. Today, a job in manufacturing demands special skills and 
may even require a college degree.
    The changing nature of manufacturing demonstrates the importance of 
job training for the success of both America's manufacturers and their 
workers. Congress enacted the Workforce Investment Act in 1998 to 
consolidate the federal government's fragmented job training system 
into a coherent one-stop system that could serve the needs of employers 
and workers.
    However, the Government Accountability Office (GAO) found 
continuing fragmentation, overlap, and potential duplication in job 
training programs run by multiple federal agencies. For fiscal year 
2009, the GAO found 47 federally funded job training programs 
administered across nine agencies. Almost all of those programs overlap 
with other programs in the provision of similar services but with 
differences in eligibility, objectives, and service delivery.
    In addition to costly duplication, federal job training programs do 
not necessarily serve their purpose well either for those seeking jobs 
or workers seeking retraining. Job training programs that work best are 
employer-driven, not bureaucracy-driven. Manufacturers know what skills 
employees need to succeed better than bureaucrats.
    The Senate will soon be reconsidering the Workforce Investment Act. 
Congress has an opportunity to consolidate and reform existing federal 
job training programs and to improve their value for U.S. taxpayers. I 
urge Republicans and Democrats in both Houses of Congress to seize this 
opportunity.
    However, the best job training programs are meaningless if there 
are no jobs available for their graduates. The Employment Situation 
Report for June, which was released last Friday, confirms that the 
economic policies of President Obama and Congressional Democrats are 
failing to revive our moribund economy and create jobs--manufacturing 
or otherwise.
    By the Obama Administration's own standards, its stimulus plan has 
failed to create jobs. According to the June report, the United States 
still has 6.5 million fewer payroll jobs than promised, and June's 
unemployment rate of 9.2 percent is far above the promised 6.7 percent.
    History demonstrates that business investment in new buildings, 
equipment, and software, not federal spending, drives the creation of 
new payroll jobs. U.S. businesses are sitting on nearly $2 trillion 
that they could invest here at home to create jobs for American 
workers, but they are refusing to do so.
    Why does American capital seem to be ``on strike''? The answer is 
that the Administration's economic policies keep businesses guessing 
what onerous burdens await them. As several Texas businessmen have told 
me, ``Predicting market conditions is what we do for a living, but 
predicting what the President and Congress may do--forget it!''
    It now is widely understood that excessive federal spending, budget 
deficits, and debt accumulation mortgage our economic future and 
increase uncertainty over the size and form of future tax increases. 
However, we also have a regulatory explosion under President Obama that 
thwarts business expansion and increases uncertainty.
    Here are just a few examples of regulatory excesses that discourage 
job creation:

    <bullet>  The State Department's failure to issue a construction 
permit for the Keystone XL pipeline from Canada, a project estimated to 
create over 13,000 high-wage manufacturing and construction jobs in 
2011-2012 across the country, stimulating significant additional 
economic activity.
    <bullet>  The Administration's moratorium on and subsequent slow 
rolling of permits for deep-water oil exploration and development;
    <bullet>  The EPA's proposed regulations on greenhouse gas 
emissions; and
    <bullet>  The National Labor Relations Board's unprecedented 
actions against Boeing for locating one of its manufacturing facilities 
in South Carolina.

    While solving our fiscal problems requires congressional action, 
President Obama could end his regulatory onslaught on American business 
on his own and without delay. If President Obama is serious about 
relieving unemployment, he should act now to reverse his 
Administration's confidence-shattering, job-destroying regulatory 
policies.
    I look forward to hearing the testimony of today's witnesses.

    [GRAPHIC] [TIFF OMITTED] T8300.001
    
    [GRAPHIC] [TIFF OMITTED] T8300.002
    
    [GRAPHIC] [TIFF OMITTED] T8300.003
    
    [GRAPHIC] [TIFF OMITTED] T8300.004
    
    [GRAPHIC] [TIFF OMITTED] T8300.005
    
    [GRAPHIC] [TIFF OMITTED] T8300.006
    
    [GRAPHIC] [TIFF OMITTED] T8300.007
    
    [GRAPHIC] [TIFF OMITTED] T8300.008
    
    [GRAPHIC] [TIFF OMITTED] T8300.009
    
    [GRAPHIC] [TIFF OMITTED] T8300.010
    
    [GRAPHIC] [TIFF OMITTED] T8300.011
    
    [GRAPHIC] [TIFF OMITTED] T8300.012
    
    [GRAPHIC] [TIFF OMITTED] T8300.013
    
    [GRAPHIC] [TIFF OMITTED] T8300.014
    
    [GRAPHIC] [TIFF OMITTED] T8300.015
    
    [GRAPHIC] [TIFF OMITTED] T8300.016
    
    [GRAPHIC] [TIFF OMITTED] T8300.017
    
    [GRAPHIC] [TIFF OMITTED] T8300.018
    
    [GRAPHIC] [TIFF OMITTED] T8300.019
    
    [GRAPHIC] [TIFF OMITTED] T8300.020
    
    [GRAPHIC] [TIFF OMITTED] T8300.021
    
    [GRAPHIC] [TIFF OMITTED] T8300.022
    
    [GRAPHIC] [TIFF OMITTED] T8300.023
    
    [GRAPHIC] [TIFF OMITTED] T8300.024
    
    [GRAPHIC] [TIFF OMITTED] T8300.025
    
    [GRAPHIC] [TIFF OMITTED] T8300.026
    
    [GRAPHIC] [TIFF OMITTED] T8300.027
    
    [GRAPHIC] [TIFF OMITTED] T8300.028
    
    [GRAPHIC] [TIFF OMITTED] T8300.029
    
    [GRAPHIC] [TIFF OMITTED] T8300.030
    
    [GRAPHIC] [TIFF OMITTED] T8300.031
    
    [GRAPHIC] [TIFF OMITTED] T8300.032
    
    [GRAPHIC] [TIFF OMITTED] T8300.033
    
    [GRAPHIC] [TIFF OMITTED] T8300.034
    
    [GRAPHIC] [TIFF OMITTED] T8300.035
    
    [GRAPHIC] [TIFF OMITTED] T8300.036
    
    [GRAPHIC] [TIFF OMITTED] T8300.037
    
    [GRAPHIC] [TIFF OMITTED] T8300.038
    
    [GRAPHIC] [TIFF OMITTED] T8300.039
    
    [GRAPHIC] [TIFF OMITTED] T8300.040
    
    [GRAPHIC] [TIFF OMITTED] T8300.041
    
    [GRAPHIC] [TIFF OMITTED] T8300.042
    
     Prepared Statement of Representative Michael C. Burgess, M.D.

    Thank you Mr. Chairman for the recognition. I'm glad to be here 
today to discuss this important subject.
    America needs a strong manufacturing sector. We have seen across 
the South new factories arise, built by foreign companies such as BMW, 
Mercedes, Hyundai, and Thyssen Krupp. We need more of this advanced, 
higher-paying manufacturing work. But we need to encourage more 
American companies like Boeing, who want to operate in the U.S., to 
expand by getting the government out of their way. We also need to 
encourage other American manufacturers like Caterpillar to expand in 
America and not overseas. Finally, we should ensure that smaller 
manufacturing companies can thrive in America as well.
    My state of Texas is a right-to-work state, and we see employers 
and employees moving there from all over the country. Last month, in 
the USA Today, it was announced that Texas now has the second largest 
economy of any state in the country, overtaking New York. Texas GDP is 
now almost as large as the economy of Canada or Spain. This didn't 
happen overnight either. Texas was able to accomplish this because of 
no individual income tax, low taxes overall, and right-to-work laws so 
that employers and employees aren't compelled to join unions when they 
don't want to. In other words, this economic growth hasn't been the 
result of strong-arm tactics but flexibility.
    Every day when you drive around North Texas you see licenses plates 
from California. And trust me, they aren't just there to sightsee. 
Rather, people are moving in droves to a place that is welcoming for 
jobs and companies. If we want to increase our manufacturing base as a 
nation, we need similar approaches elsewhere. The service sector is 
important and is a huge part of our economy. But manufacturing creates 
a tangible product that you can be proud of and also lets you exploit 
your comparative advantage. In America we have an entrepreneurial base 
that no other country does. Combined with an educated workforce, we can 
maintain and grow a strong manufacturing sector. But a better education 
system, flexibility for employers and employees, plus job friendly 
governments surrounding our entrepreneurs will be the determining 
factors to America remaining a manufacturing power. Of these three 
important factors, the topic we will be discussing today is training 
for workers. I hope to hear from today's panelists about how training 
and education can improve our manufacturing industry.
  

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
